                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




    Rising Redefaults of HAMP Mortgage Modifications
     Hurt Homeowners, Communities, and Taxpayers




Special Inspector General for the Troubled Asset Relief Program
                                                       July 24, 2013
2   special inspector general I troubled asset relief program
                                                                                                                                  quarterly report to congress I July 24, 2013       3




                                         i
Introduction
More than four years ago, in April 2009, the Administration launched its program
to support homeowners under TARP, the Home Affordable Modification Program
(“HAMP”).ii HAMP has been the centerpiece in Treasury’s efforts as outlined by
Congress through the TARP legislation to “[protect] the interests of taxpayers”
and “help families keep their homes.”1 While HAMP has helped about 865,000
homeowners avoid foreclosure through permanent mortgage modifications, more
than 306,000 homeowners have redefaulted out of the program–often into a less
advantageous private sector modification or even worse, into foreclosure. Also,
of homeowners still in an active HAMP permanent modification, more than
88,000 have missed one to two monthly mortgage payments and thus are at risk of
redefaulting out of the program.2, iii
    Twenty-two percent of homeowners who have redefaulted on their HAMP
permanent mortgage modifications have moved into the foreclosure process. The
Administration’s stated goal for the housing initiative was “to help as many as three
to four million financially struggling homeowners avoid foreclosure by modifying
loans to a level that is affordable for borrowers now and sustainable over the
long term.”3 However, since 2009, during each year of the program, an increased
number of homeowners redefaulted on HAMP permanent mortgage modifications.
Redefault rates of the oldest 2009 HAMP permanent mortgage modifications have
continued to increase as they age at a redefault rate of 46%. The 2010 HAMP
permanent mortgage modifications are redefaulting at a rate of 38%.4 Treasury’s
data continue to demonstrate that the longer homeowners remain in HAMP,
the greater the chance that they will redefault on their permanent modification
and fall out of the TARP program. For the substantial number of homeowners
who redefault, their modification was not sustainable. It is crucial that Treasury
recognize this problem and take proactive steps to ensure that HAMP lives up to its
promise and potential.
    In addition to the hardship placed on families and communities, HAMP
redefaults cost taxpayers money. As of April 30, 2013, $815 million (18% of TARP                                                               For more on SIGTARP’s
funds spent for all HAMP permanent modifications) has been spent on the more                                                                   recommendations to Treasury on
than 163,000iv HAMP permanent modifications that redefaulted, according to                                                                     HAMP redefaults, see SIGTARP’s July
Treasury.5 Homeowners who receive a HAMP permanent modification but end                                                                        2013 Quarterly Report, page 203,
up losing their home to foreclosure or fall out of the TARP program are not being                                                              and SIGTARP’s April 2013 Quarterly
helped to keep their homes as TARP intended, and taxpayers lose the positive                                                                   Report, pages 10-11, 179-182, and
impact these funds were to provide for the individual family and the community                                                                 251-252.
at large.


i	SIGTARP is issuing this report under the Emergency Economic Stabilization Act. It is not an audit or evaluation under the Inspector
     General Act of 1978 as amended.
ii	In this report, “HAMP” refers to the original HAMP First Lien Modification Program, which Treasury later renamed HAMP Tier 1.
iii	In its “Mortgage Metrics Report, First Quarter 2013,” OCC compared a snapshot of HAMP permanent modifications and private
     modifications, from 2011 and 2012, between three and 15 months after the modifications became effective, and 60 or more days
     late on payments.
iv	HAMP also covers loans owned by the two Government-sponsored entities (“GSEs”), Fannie Mae and Freddie Mac. TARP funds
     are used to pay incentives for non-GSE, HAMP permanent modifications. The GSEs pay for GSE-HAMP modifications; 142,727
     homeowners have redefaulted on GSE-HAMP permanent modifications. Table 3.1 provides additional information on the annual and
     cumulative activity of non-GSE HAMP permanent modifications and GSE-HAMP permanent modifications.
4           special inspector general I troubled asset relief program




                                                        The Administration’s recent announcement that the HAMP application period
                                                   will be continued for an additional two years to December 31, 2015, gives Treasury
                                                   an opportunity to bring more struggling homeowners into the program, and reduce
                                                   the number of homeowners who fall out of the program. Homeowners now have
                                                   an additional two years to apply to HAMP, and payments on modified loans will be
                                                   disbursed until 2021. That means that Treasury still has time to improve the
                                                   program to help homeowners.
                                                        SIGTARP has made four recommendations to Treasury on how to improve
                                                   the efficiency and effectiveness of the HAMP program by curbing HAMP
                                                   redefaults, including conducting further research into the causes of redefault;
                                                   requiring servicers to develop and use an “early warning system” to actively reach
                                                   out to homeowners who may be at risk of redefaulting; and providing help and
                                                   information to homeowners who have redefaulted. Treasury recently agreed to
                                                   implement SIGTARP’s recommendations to minimize redefaults.6 Once fully
                                                   implemented, these recommendations would help ensure that homeowners who
                                                   receive HAMP permanent mortgage modifications have affordable and sustainable
                                                   mortgages and remain in their homes.
                                                        While it is Treasury’s responsibility to conduct this research based on existing
                                                   data as well as new research that Treasury should undertake, SIGTARP conducted
                                                   a review of Treasury’s existing data on HAMP permanent mortgage modifica-
                                                   tions to homeowners who have redefaulted. This data shows some clear patterns.
                                                   Homeowners who are most likely to redefault: (1) received the least reduction in
                                                   their monthly mortgage payment and overall debt, (2) are still underwater on their
                                                   mortgage, and (3) have subprime credit scores at the time of modification as well as
                                                   a high overall debt burdens. Treasury should use these observations and augment
                                                   them with its own analysis, as SIGTARP has recommended.
                                                        As our review indicates, with each day that passes, more and more homeowners
                                                   fall out of the HAMP program. To protect the interests of both homeowners and
                                                   taxpayers, Treasury should take action so that as many homeowners as possible
                                                   can be helped to keep their homes – particularly those who have redefaulted,
                                                   are redefaulting, or are at risk of redefault – and can permanently sustain their
                                                   mortgages. It is crucial that HAMP fulfill its intent to help homeowners.




                                                   TARP and Loan Modifications
                                                   In the midst of the 2008 financial crisis, Congress authorized TARP, directing
    For more information on HAMP                   Treasury to create foreclosure mitigation efforts that would maximize assistance for
    mortgage modifications, see SIGTARP’s          homeowners, minimize foreclosures, and facilitate loan modifications to prevent
    July 2013 Quarterly Report, pages              avoidable foreclosures.7 Some Members of Congress would not authorize TARP
    55-81.                                         until they were assured that Treasury was required to use some TARP funds to
                                                   directly help homeowners avoid foreclosure.8
                                                       In 2009, Treasury launched its signature mortgage modification program,
                                                   HAMP. Under this program, homeowners who are in default on their non-GSE
                                                   mortgages or at imminent risk of default can apply to their mortgage servicer
                                                                             quarterly report to congress I July 24, 2013   5




for a loan modification that should make the loan more affordable by reducing
monthly payments. Under HAMP, the mortgage servicer, mortgage investors, and
homeowner are all eligible for incentive payments that are paid from TARP funds.
(Homeowner incentives are paid to servicers that, in turn, apply the payment to a
homeowner’s mortgage).9 Treasury obligated $19.1 billion for the HAMP First-Lien
Modification Program. As of April 30, 2013, Treasury has expended only
$4.4 billion of the $19.1 billion (23%) on HAMP permanent modifications.10
    Homeowners participating in HAMP are supposed to first receive a trial
mortgage modification for three to four months and they may or may not
subsequently receive a permanent mortgage modification. A trial modification
will not help a homeowner avoid foreclosure in the long run, only a permanent
modification can help do that. Once a homeowner secures a HAMP permanent
modification, TARP-funded incentive payments can be disbursed. Homeowners
have until December 31, 2015, to apply for a HAMP modification; TARP incentive
payments can last for five years, until as late as 2021.11

Redefaults on Permanent Modifications Are Increasing
According to Treasury, as of April 30, 2013, of the approximately 1.2 million
homeowners (TARP and GSE HAMP combined) who received a HAMP
permanent modification, 306,538 homeowners (26%) fell three months behind in
payments and, thus, redefaulted.12 However, this percentage includes all HAMP
modifications since the start of the program. The longer a homeowner remains in
HAMP, the more likely he or she is to redefault out of the program. Redefaults of
the oldest HAMP modifications are at a 46% redefault rate, a rate that continues
to increase as the modifications age. These homeowners fell out of the HAMP
program, and their HAMP permanent modification was not sustainable. Once
again, they risked losing their homes and some may have lost their homes.
    For the more than 306,000 homeowners who have redefaulted on permanent
mortgage modifications since HAMP began, the modification they received
was not sustainable. Since HAMP’s inception in 2009, the cumulative number
of homeowners who have received permanent modifications and subsequently
redefaulted has increased each year.13 The percentage of the total, cumulative
number of homeowners who redefaulted also has risen every year—from 1% at the
end of 2009 to 26% in the first four months of 2013.14 Table 3.1 provides detail
on the annual and cumulative number and percentage of homeowners in HAMP
permanent modifications who have redefaulted over the life of HAMP.
6      special inspector general I troubled asset relief program




    TABLE 3.1
     ANNUAL AND CUMULATIVE HAMP PERMANENT MODIFICATION ACTIVITY, AS OF 4/30/2013
                            Permanent Modifications                               Active Modifications                                     Redefaulted Modifications
                                                                                                                                                                           Redefault
                                                                                                                                                                             Rate as
                                                                                                          As Percent Of                                                Percentage of
                                                                                                           Permanents                                                    Permanents
                                  Annual        Cumulative               Annual        Cumulative           Cumulative                Annual        Cumulative            Cumulative
                2009              23,633              23,633             23,502              23,502                    99%                 129                129                        1%
                2010             243,262            266,895            214,014             237,516                     89%            29,015              29,144                     11%
                2011             185,254            452,149            125,515             363,031                     80%            59,080              88,224                     20%
     TARP
                2012             114,745            566,894              54,388            417,419                     74%            58,860            147,084                      26%
                2013              33,258            600,152              15,638            433,057                     72%            16,727            163,811                      27%
                Total           600,152                               433,057                                                       163,811                                                
                2009              43,305              43,305             42,963              42,963                    99%                 339                339                        1%
                2010             269,450            312,755            241,151             284,114                     91%            27,730              28,069                         9%
                2011             168,423            481,178            115,694             399,808                     83%            51,287              79,356                     16%
     GSE
                2012              87,280            568,458              32,780            432,588                     76%            49,229            128,585                      23%
                2013              16,976            585,434                (545)a          432,043                     74%            14,142            142,727                      24%
                Total           585,434                               432,043                                                       142,727                                                
                2009              66,938              66,938             66,465              66,465                    99%                 468                468                        1%
                2010             512,712            579,650            455,165             521,630                     90%            56,745              57,213                     10%
                2011             353,677            933,327            241,209             762,839                     82%           110,367            167,580                      18%
     Total
                2012             202,025          1,135,352              87,168            850,007                     75%           108,089            275,669                      24%
                2013              50,234          1,185,586              15,093            865,100                     73%            30,869            306,538                      26%
                Total        1,185,586                                865,100                                                       306,538                                                
     Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; and April 30, 2013; as of April 30, 2013, of all permanent modifications, 13,948
     loans have been paid off and thus are not counted as redefaulted or active.
     a
       This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

     Sources: Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013, and 7/10/2013; Fannie Mae, responses to SIGTARP data
     calls, 4/19/2013, 5/22/2013, and 7/9/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress,
     1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.



                                                                The longer a homeowner stays in a HAMP permanent modification, the more
                                                            likely he or she is to redefault, with homeowners redefaulting on the oldest HAMP
                                                            permanent modifications at a rate of 46%. Of homeowners with the newest modi-
                                                            fications, those made permanent in early 2013, less than 1% had redefaulted.15
                                                            Treasury’s data shows that after homeowners’ modifications made in 2009, 2010, or
                                                            2011 had aged one year, between 11% and 21% had redefaulted.16 Approximately
                                                            half of all homeowners with HAMP permanent modifications received them in
                                                            2009 and 2010; at three years, between 37% and 42% of those homeowners had
                                                            redefaulted, with the lower rates for more recent modifications.17 However, for the
                                                            oldest of the HAMP permanent modifications, those that had aged 3.5 years, the
                                                            redefault rate was as high as 46%.18 Appendix F, Table F.2 provides detail on home-
                                                            owners with HAMP permanent modifications who redefaulted, by official quarter
                                                            the permanent modification began and length of time since the modification.
                                                                               quarterly report to congress I July 24, 2013   7




Thousands of Homeowners Are at Risk of Redefault
In addition to the homeowners who already have redefaulted out of HAMP,
thousands of more homeowners have fallen behind on payments following a
HAMP permanent mortgage modification and, thus, are at risk of redefaulting.
As of April 30, 2013, 865,100 homeowners were in an active HAMP permanent
mortgage modification.19 Of these homeowners, 88,813 (more than 10%) have
missed one or two payments but have not yet redefaulted.20
    On April 1, 2013, SIGTARP issued four recommendations to Treasury
addressing HAMP redefaults. One recommendation addressed these at risk loans:

       “Treasury should require servicers to develop and use an ‘early
       warning system’ to identify and reach out to homeowners that may be
       at risk of redefaulting on a HAMP mortgage modification, including
       providing or recommending counseling and other assistance and
       directing them to other TARP housing programs.”

   Treasury has recently agreed to implement this recommendation and can
take the first step of many by requiring servicers to flag homeowners with HAMP
permanent mortgage modifications who miss one to two payments.21 Treasury
can then require servicers to reach out to these borrowers in an effort to prevent
redefaults.




Redefault: Impact on States and
Communities
Homeowners are redefaulting in communities throughout the nation. While the
cumulative number of HAMP permanent modifications in certain states may not
be high, some states with a relatively small number of modifications have redefault
rates of 30% or more.22 For example, only 4,511 homeowners from Mississippi
received HAMP permanent modifications, but these homeowners are redefaulting
at a rate of 35%. Meanwhile, some states with the highest number of homeowners
who have redefaulted have the lowest redefault rates. For example, California,
which has the most homeowners in permanent modifications, has the highest
number of homeowners who redefaulted on HAMP permanent modifications,
more than 56,000, but has one of the lowest redefault rates, 20%. (Only Puerto
Rico and the Virgin Islands have lower rates.) Florida, Illinois, and Arizona have
the next highest number of homeowners who redefaulted, at 38,435, 17,897,
and 14,392, respectively. After Mississippi, Alabama has a redefault rate of 33%
for homeowners in HAMP permanent modifications, followed by Tennessee,
Delaware, Louisiana, and Missouri, where homeowners are redefaulting at a rate
of 32%. Tables 3.2-3.8 show regional and state breakdowns of the number of
homeowners with HAMP permanent modifications, the number of homeowners
8   special inspector general I troubled asset relief program




                                           with active permanent modifications, the number who have redefaulted on
                                           modifications, and the redefault rates.
                                              Tables F.3 and F.4 in Appendix F shows the number of homeowners with
                                           HAMP permanent modifications, the number of homeowners with active perma-
                                           nent modifications, the number who have redefaulted on modifications, and the
                                           redefault rates by Metropolitan Statistical Area.

                                           Table 3.2
                                            Redefaulted HAMP Permanent Modifications, by region, cumulative
                                            as of 4/30/2013
                                                                                   Permanent                         Active                Redefaulted
                                                                                  Modifications               Modifications               Modifications           Redefault Rate
                                            West                                          327,139                   256,809                         67,365                   21%
                                            Mountain West/ Plains                              66,097                   47,039                      17,879                   27%
                                            Southwest/ South Central                           98,647                   68,174                      28,885                   29%
                                            Midwest                                       186,770                   131,182                         53,112                   28%
                                            Mid-Atlantic/ Northeast                       256,384                   184,110                         69,403                   27%
                                            Southeast                                     250,549                   177,786                         69,894                   28%
                                            Total                                     1,185,586                    865,100                      306,538                      26%
                                            Notes: Includes GSE and non-GSE modifications. Of all permanent modifications, 13,948 loans have been paid off.

                                            Source: Treasury, response to SIGTARP data call, 6/13/2013.


                                           Figure 3.1
                                           REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
                                           AS OF 4/30/2013

                                                AK
                                                                                     MOUNTAIN WEST/
                                                                                         PLAINS
                                                                                         17,879                                      MIDWEST                      MID-ATLANTIC/
                                                                        WA                                                            53,112                       NORTHEAST
                                                                                          MT                                                                VT ME    69,403
                                                                                                     ND
                                                                   OR                                              MN                                                 NH
                                                                                                                              WI                           NY
                                                WEST                            ID                      SD                                                             MA
                                                                                                                                      MI
                                               67,365
                                                                                          WY
                                                                                                                    IA                                               CT RI
                                                                                                                                           OH         PA            NJ
                                                                                                        NE
                                                                          NV                                                   IL    IN                            DE
                                                                  CA                 UT                                                             WV VA        MD
                                                                                               CO                   MO
                                                                                                             KS                           KY                    DC
                                                          HI                                                                                         NC
                                                                                                                                     TN
                                                                                 AZ                           OK        AR                           SC
                                                                                               NM
                                                 GU                                                                                MS AL       GA           SOUTHEAST
                                                                                                         TX              LA                                   69,894

                                                                                                                                                     FL           PR   VI
                                                                                 SOUTHWEST/
                                                                                SOUTH CENTRAL
                                                                                    28,885

                                                            WEST                                                              MIDWEST
                                                            MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                                                            SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
                                                                                                            quarterly report to congress I July 24, 2013           9




West
Table 3.3
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate
                                           WA         AK                        566                         405                         135                 24%
                                                      CA                  284,031                     225,023                      56,634                   20%
            AK
                                      OR              GU                            9                          6                           2                22%
                                                      HI                      4,399                      3,356                          964                 22%
                                                      OR                    13,089                       9,732                       3,172                  24%

                  GU                                  WA                    25,045                     18,287                        6,458                  26%
                                      CA              Total              327,139                     256,809                       67,365                  21%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                       HI                             Source: Treasury, response to SIGTARP data call, 6/13/2013.



       WEST                                >27%
       Percentage of Redefaults            25-27%
       on HAMP Permanent                   <25%
       Modifications



Mountain West/Plains
Table 3.4
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                    Permanent                        Active                Redefaulted
                                                                   Modifications              Modifications               Modifications           Redefault Rate

                            MT                        CO                    16,135                     12,227                        3,560                  22%
                                       ND
                                                      ID                      4,512                      3,247                       1,189                  26%
             ID                            SD         KS                      2,947                      1,991                          885                 30%
                             WY
                                                      MT                      1,335                         992                         296                 22%
                                           NE
       NV                                             ND                        190                         130                           47                25%
                  UT
                                 CO                   NE                      1,716                      1,133                          528                 31%
                                                KS
                                                      NV                    27,747                     18,938                        8,533                  31%
                                                      SD                        450                         297                         128                 28%
     MOUNTAIN WEST/                          >27%
                                             25-27%
     PLAINS                                  <25%
                                                      UT                    10,486                       7,683                       2,562                  24%
     Percentage of Redefaults on
     HAMP Permanent Modifications
                                                      WY                        579                         401                         151                 26%
                                                      Total                66,097                      47,039                      17,879                  27%
                                                      Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                      Source: Treasury, response to SIGTARP data call, 6/13/2013.
10   special inspector general I troubled asset relief program




      Southwest/South Central
      Table 3.5
       Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate

            AZ                               OK                 AR                      2,715                      1,811                          829                 31%
                      NM                                  AR
                                                                AZ                    48,811                     33,728                      14,392                   29%
                                                          LA    LA                      7,210                      4,761                       2,334                  32%
                                        TX
                                                                NM                      3,971                      2,867                       1,032                  26%
                                                                OK                      2,959                      1,951                          921                 31%
                                                                TX                    32,981                     23,056                        9,377                  28%
             SOUTHWEST/                                >27%     Total                98,647                      68,174                      28,885                  29%
                                                       25-27%
             SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
             Percentage of Redefaults
             on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 6/13/2013.
             Modifications



      Midwest
      Table 3.6
       Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                              Permanent                        Active                Redefaulted
                                                                             Modifications              Modifications               Modifications           Redefault Rate
                                                                IA                      3,043                      2,002                          946                 31%
                    MN
                              WI                                IL                    62,999                     44,622                      17,897                   28%
                                             MI                 IN                    11,583                       7,954                       3,439                  30%
                      IA
                                                                KY                      4,616                      3,103                       1,409                  31%
                                   IL   IN        OH
                                                                MI                    35,503                     25,751                        9,194                  26%
                         MO
                                              KY                MN                    19,240                     13,565                        5,396                  28%
                                                                MO                    12,491                       8,288                       3,973                  32%
              MIDWEST                              >27%
                                                                OH                    25,446                     17,894                        7,216                  28%
              Percentage of Redefaults             25-27%
              on HAMP Permanent                    <25%         WI                    11,849                       8,003                       3,642                  31%
              Modifications
                                                                Total              186,770                     131,182                       53,112                  28%
                                                                Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                Source: Treasury, response to SIGTARP data call, 6/13/2013.
                                                                                                              quarterly report to congress I July 24, 2013           11




Mid-Atlantic/Northeast
Table 3.7
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                             VT    ME                   CT                    15,586                     10,974                        4,470                  29%

                                        NH              DC                      2,056                      1,526                          506                 25%
                        NY               MA             DE                      3,802                      2,534                       1,232                  32%
                                              RI
                                   CT
                   PA             NJ                    MA                    28,526                     20,628                        7,557                  26%
                                 DE                     MD                    38,194                     27,121                      10,678                   28%
             WV VA
             WV                MD
                              DC                        ME                      3,507                      2,370                       1,080                  31%
                                                        NH                      5,490                      3,808                       1,591                  29%
                                                        NJ                    40,030                     27,684                      11,960                   30%
       MID-ATLANTIC/                      >27%
                                          25-27%        NY                    57,271                     43,624                      13,154                   23%
       NORTHEAST                          <25%
       Percentage of                                    PA                    25,746                     17,436                        7,945                  31%
       Redefaults on HAMP
       Permanent Modifications                          RI                      5,884                      4,138                       1,693                  29%
                                                        VA                    27,588                     20,402                        6,767                  25%
                                                        VT                      1,034                         732                         273                 26%
                                                        WV                      1,670                      1,133                          497                 30%
                                                        Total              256,384                     184,110                       69,403                  27%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 6/13/2013.



Southeast
Table 3.8
 Redefaulted HAMP Permanent Modifications, by state, cumulative as of 4/30/2013
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                                  NC
             TN                                         AL                      7,142                      4,657                       2,341                  33%
                              SC
                                                        FL                  144,777                     104,959                      38,435                   27%
        MS    AL        GA
                                              PR        GA                    43,947                     30,812                      12,700                   29%
                                                        MS                      4,511                      2,866                       1,574                  35%
                                                   VI
                                  FL                    NC                    22,232                     15,259                        6,617                  30%
                                                        PR                      3,773                      3,114                          597                 16%
                                                        SC                    11,334                       7,678                       3,464                  31%
       SOUTHEAST                         >27%
       Percentage of                     25-27%         TN                    12,827                       8,435                       4,166                  32%
       Redefaults on HAMP                <25%
       Permanent Modifications                          VI                            6                          6                           0                 0%
                                                        Total              250,549                     177,786                       69,894                  28%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, response to SIGTARP data call, 6/13/2013.
12   special inspector general I troubled asset relief program




                                            Redefault: Impact on Taxpayers Funding
                                            TARP
                                            Taxpayers have lost $815 million in TARP funds paid as incentives for HAMP
                                            permanent mortgage modifications for 163,811 homeowners who later
                                            redefaulted.23 As of April 30, 2013, Treasury has distributed $4.4 billion in TARP
                                            funds for 600,152 homeowners’ HAMP permanent modifications.24 According to
                                            Treasury, $2.2 billion of that was designated for investor incentives, $1.5 billion for
                                            servicer incentives, and $770 million for homeowner incentives.25 (Homeowner
                                            incentives are paid to servicers that, in turn, apply the payment to a homeowner’s
                                            mortgage).26 According to Treasury, 18% of those funds were paid for incentives on
                                            HAMP permanent modifications held by homeowners who later redefaulted.27
                                                More than half of TARP funds that Treasury spent for HAMP permanent modi-
                                            fications that redefaulted were for mortgages currently serviced by three servicers,
                                            Ocwen Loan Servicing, LLC, J.P. Morgan Chase Bank, NA, and Bank of America,
                                            N.A. (listed in Table 3.9v).28 Almost all (91%) of TARP funds Treasury spent for
                                            HAMP permanent modifications that redefaulted were for mortgages currently
                                            serviced by 10 servicers (listed in Table 3.9).29 Table 3.9 shows payments by HAMP
                                            permanent modifications currently within servicers’ portfolios for active, redefault-
                                            ed, and paid off loans.




                                            v	Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
                                               by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
                                               transfers are not taken into account when the current servicer on the loan is used.
                                                                                                                                 quarterly report to congress I July 24, 2013                   13




TABLE 3.9
 TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS Currently WITHIN
 SERVICERS’ PORTFOLIOS, AS OF 4/30/2013
                                                                                                                                                                            Percentage
                                                                                                                                                                          of Total TARP
                                                       TARP Incentive               TARP Incentive               TARP Incentive                  Total TARP                    Incentive
                                                        Payments for                 Payments for                 Payments for                     Incentive              Payments for
                                                         Permanents                   Permanents                   Permanents                 Payments for                 Permanents
 Servicer Name                                                 Active                 Redefaulted                      Paid Off              Permanents All                Redefaulted
 Ocwen Loan Servicing, LLC                               $717,012,471                 $193,448,229                    $2,783,080               $913,243,780                            21%
 JPMorgan Chase Bank, NA                                   610,180,075                  138,039,418                     2,184,054                750,403,546                           18%
 Bank of America, N.A.                                     541,463,146                  102,348,226                     1,771,097                645,582,468                           16%
 Wells Fargo Bank, N.A.                                    556,799,469                   99,746,001                     2,363,712                658,909,182                           15%
 Select Portfolio Servicing, Inc.                          232,357,874                   66,032,543                     1,179,550                299,569,967                           22%
 GMAC Mortgage, LLC                                        162,351,234                   38,087,369                     1,535,568                201,974,171                           19%
 CitiMortgage Inc                                          220,396,014                   32,212,389                     1,557,153                254,165,556                           13%
 Nationstar Mortgage LLC                                   158,077,382                   31,631,671                        928,588               190,637,641                           17%
 OneWest Bank                                              198,871,236                   30,471,998                        378,627               229,721,860                           13%
 Carrington Mortgage
                                                            33,540,072                   13,302,807                        291,268                 47,134,147                          28%
 Services, LLC.
 Other                                                     176,226,136                   69,612,295                     5,324,529                251,162,960                           28%
 Total                                                3,607,275,109                   814,932,943                    20,297,226              4,442,505,278                             18%
 Note: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan. The
 incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used. Totals shown
 here include payments under the Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

 Sources: Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae, responses to SIGTARP vetting draft,
 7/11/2013 and 7/16/2013.




Redefaults Hurt Homeowners
Redefaults hurt homeowners. Homeowners who have redefaulted on a HAMP
permanent modification must seek alternatives to losing their home to foreclosure,
short sale, or deed-in-lieu of foreclosure, with limited options. The homeowner
could seek assistance through another TARP housing program such as the Hardest
Hit Fund (“HHF”) program if the homeowner lives in a participating state and
SIGTARP recommended that Treasury require servicers to inform homeowners of
this in writing. The homeowner may enter into a private modification offered by his
or her servicer, but as the Office of the Comptroller of the Currency (“OCC”) has
reported, private modifications are typically not as advantageous to the homeowner
as a HAMP modification.30, vi In the worst case scenario, the homeowner can lose
the home to foreclosure, as well as losing any accrued equity. According to Treasury,
Treasury does not require servicers to ask why a homeowner redefaults on a HAMP
permanent modification.31 Treasury does track whether all homeowners who

vi	In its “Mortgage Metrics Report, First Quarter 2013,” the OCC compared a snapshot of HAMP permanent modifications and private
    modifications, from 2011 and 2012, between three and 15 months after the modifications became effective, and 60 or more days
    late on payments.
14   special inspector general I troubled asset relief program




                                            redefault in a HAMP permanent modification end up in foreclosure or in another
                                            modification. However, Treasury reported that of the redefaulted loans reported by
                                            the eight largest servicers, as of April 30, 2013, 31% of homeowners who redefault
                                            receive an alternative modification, usually a private sector modification, 22% of
                                            homeowners move into the foreclosure process, and 12% of homeowners lose their
                                            home via a short sale or deed-in-lieu of foreclosure.32

                                            What Homeowners Say
                                            Anecdotal evidence suggests that poor service by mortgage servicers contributes
                                            to homeowners redefaulting on HAMP permanent modifications. Through its
                                            Hotline, SIGTARP has received thousands of calls from the public regarding
                                            HAMP, many of them alleging mortgage servicer error and lack of communication
                                            or miscommunication. In these cases, SIGTARP contacted the homeowner.
                                            SIGTARP may have also used Hotline information to make recommendations to
                                            Treasury to improve HAMP and may have referred the homeowner to Treasury
                                            and any other applicable agency. SIGTARP also spoke with several attorneys at
                                            nonprofit organizations across the country who represent HAMP homeowners who
                                            have redefaulted and who allege servicer errors regarding HAMP modifications.
                                            The circumstances homeowners allege include (1) servicer payment calculation
                                            or payment credit errors, (2) problems following a transfer of mortgage ownership
                                            or servicing rights, (3) lost paperwork, (4) dual tracking—when a servicer moves
                                            ahead on foreclosure even while a homeowner is in the HAMP modification
                                            process, a procedure prohibited under HAMP guidelines, (5) a servicer not
                                            honoring a HAMP permanent modification, or (6) homeowners with a change in
                                            circumstance. Often there is some combination of these issues. Anecdotal evidence
                                            suggests servicers need more improvement. The following are some instances
                                            where homeowners allege servicer-caused permanent modification redefaults.

                                            Servicer payment calculation or payment credit errors

                                            •	 In February 2011, a couple from Paso Robles, California, contacted the
                                               SIGTARP Hotline to say that they had received a HAMP permanent
                                               modification in March 2010 and made on time mortgage payments. However,
                                               the homeowners told SIGTARP that, in January 2011, they received a letter
                                               from their servicer saying that they were late on their mortgage payments and
                                               that the servicer had started foreclosure proceedings against the property.
                                               According to the homeowners, “Each time we have contacted [our servicer] via
                                               the phone numbers they have given us. Each time the representative answering
                                               the phone has stated that we were delinquent; however, after stating that we
                                               have a loan modification agreement and we are actually current, they replied
                                               that the computer agrees with us; they stated that they will research the bank’s
                                               error; and that someone will get back in touch with us. [Our servicer] has never
                                               returned any of our numerous calls or answered our inquiries.” Despite being
                                               given assurances of a current status, the servicer considered the homeowners
                                               redefaulted and moved to foreclose on the property.33
                                                                                quarterly report to congress I July 24, 2013   15




•	 In May 2013, a husband and wife in San Jose, California, both police officers,
   redefaulted on their HAMP permanent modification, an attorney reported to
   SIGTARP. Because of health problems and an income reduction, the couple
   fell behind on mortgage payments and applied for and received a HAMP
   modification, which included a $50,000 principal reduction; the modification
   was made permanent in January 2013. However, the HAMP permanent
   modification agreement did not specify the required mortgage payment amount,
   so the couple made mortgage payments in the amount required by their trial
   modification. From February through April 2013, the couple continued to
   make these payments but received notices that they were late on their mortgage
   payments. The couple contacted the bank and visited a branch office to try
   to determine the amount of their required payment, but they were unable
   to resolve the situation. In May 2013, the servicer considered their HAMP
   modification to have redefaulted. In July 2013, the attorney reported to
   SIGTARP that the couple’s loan modification had been reinstated and they are
   no longer facing foreclosure.34
•	 In Connecticut, an attorney from a nonprofit organization described to
   SIGTARP a variety of scenarios that he had encountered where homeowners
   had difficulties with their servicer following a HAMP permanent modification,
   and in the worst-case scenarios, servicers claimed that homeowners redefaulted
   and recommenced judicial foreclosure proceedings. Some servicers had
   miscalculated the required payments for a HAMP permanent modification and
   informed homeowners that they would need to agree to a new modification
   resulting in higher payments than those required by the original HAMP
   permanent modification. Other servicers did not recognize that a loan had
   undergone a HAMP permanent modification and treated the homeowners’
   payments as insufficient. In some cases, the servicer backdated the due date
   for the homeowner’s first mortgage payment to a date prior to the effective date
   of the HAMP permanent modification and charged the homeowner new late
   fees even though the homeowner made the payments under the modification
   agreement.35

Problems following a transfer of mortgage ownership or servicing
rights

•	 A woman from San Jose received a HAMP permanent modification in 2012,
   but redefaulted in 2013 after a transfer of servicing rights from one servicer to
   another servicer, an attorney recounted to SIGTARP. The homeowner’s second
   servicer refused to honor a HAMP modification arranged by the previous
   servicer. After the new servicer began servicing the mortgage, it stopped
   crediting her mortgage payments and instead held the payments in a suspense
   account. The new servicer told the homeowner that she would have to apply for
   a new mortgage modification. Although the homeowner was eventually able to
   obtain a HAMP modification from the new servicer, she decided the mortgage
   was not affordable and opted to sell her home in a short sale.36
16   special inspector general I troubled asset relief program




                                            •	 In July 2013, the SIGTARP Hotline was contacted by an attorney representing
                                               a Riverside, California, homeowner who received a HAMP permanent
                                               modification in February 2011. According to the attorney, the homeowner’s
                                               mortgage was then transferred to a new servicer, which claimed that it had no
                                               knowledge of the modification. In February 2011, the first servicer’s employees
                                               verbally approved her for a HAMP permanent modification, described the terms
                                               of the modification, and said they would send her the paperwork. The servicer
                                               never sent her the paperwork. Then her loan was transferred to a new servicer.
                                               The homeowner contacted her new servicer and was referred, back-and-forth,
                                               between her new servicer and previous servicer, both of whom claimed that
                                               the other had the homeowner’s modification paperwork. The homeowner’s
                                               previous servicer went so far as to send a letter to the homeowner stating that
                                               her modification paperwork was transferred to her new servicer. Even with this
                                               letter, the new servicer continued to claim that it had no such paperwork, and,
                                               at the request of the new servicer, the homeowner filled out a new mortgage
                                               modification application. In March 2013, the new servicer denied her a
                                               mortgage modification, noting that it does “not participate in any government
                                               programs.”37

                                            Lost paperwork

                                            •	 In September 2010, the SIGTARP Hotline was contacted by Hudson, Florida,
                                               homeowners who were under the impression that they had received a HAMP
                                               permanent modification in July 2010. However, according to the servicer, they
                                               were mistaken and, thus, had redefaulted sometime between July and August of
                                               2010. The homeowners stated that between 2009 and 2010, they had submitted
                                               each piece of paperwork as requested by the servicer -- sometimes the same
                                               paperwork multiple times. The homeowners also stated that following the trial
                                               modification, they made their new mortgage payments, but the servicer refused
                                               to apply them to their mortgage. According to the homeowners, the servicer
                                               notified them that it never received their signed, permanent modification
                                               papers; the homeowners said the servicer never sent them modification papers
                                               to sign. The homeowners were not able to resolve the paperwork issue with the
                                               servicer and the servicer instead offered a short sale or foreclosure alternative.
                                               One of the homeowners recently reported to SIGTARP that they eventually
                                               received a HAMP permanent mortgage modification, but said that she believes
                                               that it happened only after she had told a top executive at the servicer that they
                                               planned to go public with their case.38
                                            •	 In May 2010, a Jackson, Mississippi homeowner received a HAMP permanent
                                               modification, according to an attorney. The homeowner originally applied for a
                                               HAMP modification because he had a back injury and lost his job. According
                                               to the attorney, the servicer sent a notary to deliver the HAMP permanent
                                               modification agreement to the homeowner, witness the homeowner’s signature,
                                               and return the agreement to the servicer. The homeowner kept a copy. The
                                               homeowner made his new, lower mortgage payments for around a year and
                                                                             quarterly report to congress I July 24, 2013   17




   a half, at which point the servicer returned his December 2011 mortgage
   payment and requested that the homeowner make a mortgage payment in the
   amount that he had been paying before he had received a HAMP permanent
   modification. After the homeowner contacted the servicer and, in February
   2012, retained an attorney, the servicer claimed that it had no record of
   the HAMP permanent modification or the notary, and it also informed the
   homeowner that he was delinquent on his mortgage payments. In April 2013,
   the homeowner sued his servicer. The case is pending.39

Dual tracked HAMP permanent modification and foreclosure

•	 An attorney from California described to SIGTARP that, during the past couple
   of years, her nonprofit organization has had ten cases involving redefaulted
   HAMP permanent modifications. Of the homeowners they represented, most
   applied for a HAMP modification due to a job loss, reduced income, or recently
   incurred disability. After receiving a HAMP permanent modification, the
   homeowners made their new mortgage payments, but each of their servicers
   responded by sending notices about late payments and to inform them that
   the servicer had started foreclosure proceedings. For some homeowners, the
   servicer also would not recognize the permanent modification. In all of the
   cases, the servicer did not provide a “single point of contact,” and homeowners
   were bounced among several departments without any explanation. Some
   servicers offered homeowners alternative, non-HAMP modifications that
   were unaffordable as compared to the homeowners’ HAMP permanent
   modification.40
•	 In February 2013, the SIGTARP Hotline was contacted by a Walnut Creek,
   California, homeowner who after a self-described nearly four-year struggle
   to be approved for a HAMP permanent modification finally received one
   in September 2012, only to redefault two months later due to what the
   homeowner described as retaliation. As of January 2013, the homeowner was
   in suspended foreclosure status. The homeowner’s income decreased between
   2008 and 2009 and, several times, the homeowner applied for a modification
   but was denied each time. Later in 2009, the homeowner’s mortgage was
   transferred to a new servicer. Again, several times, the homeowner applied
   for a mortgage modification, but was denied each time. The homeowner said
   that each denial was due to different servicer underwriting error. Finally, in
   September 2012, while the homeowner’s mortgage remained “under suspended
   foreclosure status,” the homeowner received a HAMP permanent modification.
   However, two months later, the homeowner’s servicer cancelled his modification
   due to what the homeowner called a “technicality.” After requesting that the
   servicer reinstate the HAMP permanent modification, the servicer informed
   the homeowner that a new contract would be mailed to the homeowner to sign.
   Since then, the homeowner has had to submit a new application for a mortgage
   modification.41
18   special inspector general I troubled asset relief program




                                            HAMP permanent modification not honored by servicer

                                            •	 According to an attorney representing homeowners from Hampton,
                                               Connecticut, the homeowners redefaulted on their HAMP permanent
                                               modification about eight months after accepting and paying on it due to a
                                               servicer error. The couple had applied for a HAMP modification because the
                                               husband became disabled and they were without an income while he waited
                                               for disability checks to arrive. In March 2010, the couple received a HAMP
                                               permanent mortgage modification. However, in the fall of 2010, the servicer
                                               notified the homeowners that it had miscalculated their required mortgage
                                               payments, told the homeowners to execute a new agreement calling for higher
                                               monthly payments and, after they refused, the servicer cancelled their HAMP
                                               permanent modification. The higher, previous interest rate was reinstituted and
                                               the couple was required to reapply for a new HAMP modification.42
                                            •	 Lancaster, Texas, homeowners contacted the SIGTARP Hotline in October
                                               2010 to relate problems with a HAMP permanent modification they had
                                               received in December 2009. The homeowners made their new mortgage
                                               payments on time, but in 2010, “field inspectors” started showing up at their
                                               home. After the homeowners contacted their servicer multiple times about the
                                               inspectors, the servicer at first said that the homeowners were current on their
                                               account, and it would call off the inspectors. However, when the inspectors
                                               continued to show up, the homeowners called their servicer in September 2010,
                                               only to learn that their HAMP permanent modification had been cancelled
                                               in August 2010 due to a mistake the servicer made related to the principal
                                               balance of the mortgage. According to the homeowners, at that time they had
                                               received no written notice that their servicer had cancelled their modification.
                                               The servicer informed the homeowners that they would need to reapply for a
                                               HAMP modification. The homeowners expressed to SIGTARP their anxiety
                                               over reapplying for a HAMP modification, given that to receive their HAMP
                                               permanent modification, they had spent much of a year calling, faxing, mailing,
                                               refaxing, and remailing paperwork to the servicer.43
                                            •	 An attorney described to SIGTARP that a man from Mississippi who he
                                               represented lost his construction job in 2012, applied for a HAMP modification,
                                               and received a HAMP permanent modification in September 2012. He
                                               made his new mortgage payments on time, but in February 2013, his servicer
                                               returned his most recent mortgage payment and notified the homeowner that
                                               a foreclosure sale was scheduled for March. The servicer explained that it had
                                               cancelled the homeowner’s permanent modification because at the time of
                                               the modification, the homeowner had been in bankruptcy proceedings, which
                                               was not the case. The homeowner retained an attorney, which resulted in the
                                               foreclosure sale being cancelled, and the servicer sending the homeowner a
                                               copy of the original, HAMP permanent mortgage modification agreement that
                                               he had signed. The homeowner proceeded to make mortgage payments, but
                                               his servicer returned his April and May 2013 mortgage payments and informed
                                                                                  quarterly report to congress I July 24, 2013   19




   the homeowner that his loan had been sold and would be transferred to a new
   servicer.44

Homeowner change in circumstance following HAMP permanent
modification

•	 A North Carolina woman received a HAMP permanent modification in May
   2011 with a modified payment of 45% of her gross income, according to her
   attorney. Although the new monthly payment was never affordable, she did
   make on time payments for six months, between late summer of 2011 and
   early 2012. After that time, her income was reduced further and she could no
   longer pay her monthly mortgage payment. In March 2012, she requested a
   remodification from her servicer. Her servicer told her that she was not eligible
   for a remodification until May 2012, one year after she had received her
   HAMP permanent modification. While she was in the midst of working out a
   remodification with her servicer, in June 2012, the homeowner’s home was sold
   at a foreclosure sale. In August 2012, she sued her servicer, alleging bad faith,
   unfair and deceptive trade practices, and gross negligence. The homeowner
   alleged that the servicer offered the homeowner a HAMP permanent mortgage
   modification in May 2011 that did not comply with HAMP and that the servicer
   falsely represented to the borrower that it was considering her application for a
   remodification while simultaneously proceeding to a foreclosure sale. The case
   is pending.45




Why Homeowners Redefault
While the overall U.S. foreclosure rate has begun to improve with the economy,
the redefault rate on HAMP-modified loans shows that problems remain.46
SIGTARP made a recommendation that Treasury conduct independent research
and analysis to determine the causes of redefaults and the characteristics of
loans or homeowners that may be more at risk for redefault. While SIGTARP has
performed a preliminary analysis of Treasury’s HAMP data for some characteristics,
it is Treasury’s responsibility to conduct in-depth research and analysis of Treasury’s
HAMP data, as well as other information that Treasury needs to obtain. SIGTARP
is sharing this analysis of Treasury’s own HAMP database so that Treasury can
develop an early warning system of those homeowners likely to redefault and
have servicers reach out to them. SIGTARP analyzed Treasury’s HAMP data and
identified permanent modifications that were effective as of April 30, 2013.47 That
analysis shows some clear patterns among homeowners who have redefaulted.
Homeowners who are most likely to redefault: (1) received the least reduction in
their mortgage payment and overall debt, (2) are still underwater on their mortgage,
and (3) have subprime credit scores at the time of modification as well as high
overall debt burdens.
20   special inspector general I troubled asset relief program




                                            Characteristics of HAMP Permanent Modifications Can Signal
                                            Redefault
                                            Not surprisingly, homeowners who received the worst deal on a HAMP
                                            modification were the most likely to redefault. According to Treasury’s database
                                            of HAMP records for permanent modifications that were effective as of April 30,
                                            2013, the smaller the reduction in a homeowner’s mortgage payments and overall
                                            debt, the more likely the homeowner was to redefault.48 Specifically, homeowners
                                            who had the highest redefault rates had high overall debt post-modification, had
                                            subprime credit scores, or owed significantly more on their home than it was worth.
                                            Homeowners whose mortgage was less than five years old when it was permanently
                                            modified were more likely to redefault than those whose mortgage was five years
                                            old or older.

                                            Debt-to-income Ratios
                                            The reduction in a homeowner’s monthly debt payments is a factor in the success
                                            of a HAMP modification.49 Homeowner debt is measured in two ways, called debt-
                                            to-income (“DTI”) ratios. The “front-end DTI” measures monthly housing-related
                                            expenses including principal, interest, taxes, and insurance as a percentage of
                                            gross income. The “back-end DTI” measures all debt, which may also include, for
                                            example, medical bills or credit card debt.
                                                HAMP modifications are structured to reduce a homeowner’s front-end DTI to
                                            31% so that monthly mortgage payments are no more than 31% of gross income.50
                                            Treasury set a goal of reducing total debt to less than 55% of income as measured
                                            by back-end DTI.51 If a homeowner receives a HAMP permanent modification
                                            where the total debt is not reduced to less than 55%, the HAMP servicer is re-
                                            quired to send a letter to the homeowner about housing counseling.52 The home-
                                            owner is required to verify in writing that he or she will secure HUD-approved
                                            housing counseling and “develop a plan to reduce [his or her]…total indebtedness
                                            below 55%.”53 Treasury requires no further action on the part of the servicer or
                                            homeowner to validate that the homeowner, in fact, received housing counseling
                                            and developed a debt reduction plan.

                                            Monthly Housing-Related Expenses
                                            Homeowners with a larger reduction in their monthly housing expenses after
                                            receiving a HAMP permanent modification fared better than those with a smaller
                                            reduction.54 Of homeowners who received a HAMP permanent modification,
                                            about 39% of homeowners whose housing expenses (measured by front-end
                                            DTI) were cut by less than 5 percentage points redefaulted. About 32% whose
                                            housing expenses were cut more than 5 percentage points but less than 10
                                            percentage points redefaulted. However, of those whose housing expenses were
                                            cut by 10 percentage points or more—say, from 41% of income to 31%—just 21%
                                            redefaulted. Table 3.10 shows changes in housing expenses and redefault rates.
                                                                                               quarterly report to congress I July 24, 2013   21




TABLE 3.10
 CHANGE IN HOUSING Expenses AND REDEFAULT RATE FOR
 HAMP PERMANENT MODIFICATIONS, Cumulative AS OF
 4/30/2013
 Change in Housing Expenses                                         Redefault Rate
 Cut by less than 5 percentage points                                         39%
 Cut by 5 to less than 10 percentage points                                   32%
 Cut by 10 or more percentage points                                          21%
 Note: Housing debt is “front-end debt-to-income ratio.”

 Source: SIGTARP analysis of Treasury HAMP data.



Total Monthly Expenses
Homeowners who were still carrying heavy overall debt loads after a mortgage
modification were the most likely to redefault.55 The amount of reduction in overall
debt as measured by back-end DTI also affects how likely a homeowner
is to redefault.
    A little less than half of homeowners had overall debt loads after permanent
modification of 55% or more of gross income, the threshold at which housing
counseling is required. Table 3.11 shows a homeowner’s total debt after HAMP
permanent modification, as measured by back-end DTI and redefault rate.

TABLE 3.11
 POST-MODIFICATION TOTAL DEBT Expense AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Total Debt After Modification                                                       Redefault Rate
 55% or more                                                                                   28%
 Less than 55%                                                                                 24%
 Note: Total debt is measured by “back-end debt-to-income ratio.”

 Source: SIGTARP analysis of Treasury HAMP data.



    Even more indicative was the amount of reduction in total debt (back-end-DTI)
that a homeowner received as a result of the HAMP modification. According to
SIGTARP’s analysis of Treasury’s HAMP data, the homeowners whose total debt
(back-end DTI) was cut by fewer than 5 percentage points were most likely to
redefault.56 Table 3.12 shows changes in total debt (back-end DTI) and redefault
rates.
22            special inspector general I troubled asset relief program




                                                     TABLE 3.12
                                                      CHANGE IN TOTAL DEBT AND REDEFAULT RATE FOR HAMP PERMANENT
                                                      MODIFICATIONS, Cumulative AS OF 4/30/2013
                                                      Change in Total Debt                                               Redefault Rate
                                                      Back-end-DTI cut by less than 5 percentage points                            38%
                                                      Back-end-DTI cut by 5 to less than 10 percentage points                      31%
                                                      Back-end-DTI cut by 10 or more percentage points                             21%
                                                      Note: Total debt is “back-end debt-to-income ratio.”

                                                      Source: SIGTARP analysis of Treasury HAMP data.



                                                     Total Equity in Home and Unpaid Principal Balance
                                                     Homeowners who owe more than their home is worth, even after receiving a
                                                     HAMP permanent mortgage modification, are more likely to redefault than
                                                     homeowners who owe less following a modification.57 How much equity a
                                                     homeowner has is measured by the loan-to-value (“LTV”) ratio. A homeowner
                                                     with an 80% LTV ratio owns 20% of the house—a traditional stake for a buyer. A
                                                     homeowner with LTV above 100% owes more than the home is worth, known as
                                                     being underwater.
                                                         Treasury should better coordinate the HAMP program with the other significant
                                                     TARP housing program, the Hardest Hit Fund (“HHF”). Treasury should
                                                     coordinate with state housing finance agency (“HFA”) HHF programs to help
                                                     homeowners further decrease their LTVs in conjunction with a HAMP permanent
                                                     modification, thereby, reducing the probability the homeowners will will redefault.
                                                     In April 2013, SIGTARP recommended to Treasury that in the letter that servicers
                                                     are required to send to homeowners who redefaulted, it include for borrowers living
                                                     in the 19 states where HFAs participate in the HHF program information about
                                                     HHF as a possible foreclosure prevention option. Some HHF states have programs
     For additional information concerning           that, in conjunction with HAMP, can help homeowners reduce their principal
     HHF, see SIGTARP’s July 2013                    balance and pay past-due amounts on their mortgages.58 Treasury recently agreed
     Quarterly Report, see pages 75-79.              to implement this recommendation.59
                                                         Of homeowners who received a HAMP permanent modification, approximately
                                                     70% were underwater when they applied, with an LTV above 100%. After receiving
                                                     a HAMP permanent modification, 73% were underwater, which may have been
                                                     caused by servicers tacking onto the mortgage balance any missed payments,
                                                     accrued interest, or escrow advances or out-of-pocket expenses to third parties
                                                     that the homeowner owed prior to receiving a HAMP permanent modification.60
                                                     Many homeowners who received HAMP permanent modifications were deeply
                                                     underwater and remained underwater even with the HAMP modification. Both
                                                     before and after receiving a HAMP permanent modification, almost 20% of
                                                     homeowners had an LTV at or above 170%. Of homeowners who were underwater
                                                     even after receiving a HAMP modification, around 28% redefaulted, compared
                                                     with 21% of those not underwater.61
                                                         For 87% of homeowners, a HAMP modification resulted in no decrease
                                                     in their LTV ratio; this may have been caused by servicers tacking onto the
                                                     mortgage balance any missed payments, accrued interest, or escrow advances or
                                                                                                                        quarterly report to congress I July 24, 2013   23




out-of-pocket expenses to third parties that the homeowner owed prior to receiving
a HAMP permanent modification. The relatively small group of homeowners
for whom the modification decreased their LTV—13% of those who received
permanent modifications—were the least likely to redefault.62 Table 3.13
shows the amount a homeowner’s LTV changed and redefault rates.

TABLE 3.13
 CHANGE IN LOAN-TO-VALUE RATIO AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Change in Loan-to-Value Ratio                                                                    Redefault Rate
 Increased by 25 or more percentage points                                                                        38%
 Increased by 10 to less than 25 percentage points                                                                36%
 Increased by 0 to less than 10 percentage points                                                                 25%
 Decreased                                                                                                        14%
 Note: A “change” that results in “increased” LTV for homeowners may have been caused by servicers adding missed
 payments, accrued interest, or escrow advances or out-of-pocket expenses to third parties to the homeowners mortgage
 balance as part of a HAMP permanent modification.

 Source: SIGTARP analysis of Treasury HAMP data.



    Principal reduction is not mandatory for HAMP. Homeowners whose unpaid
principal balance did not decrease or actually increased as a result of a HAMP
modification—for instance, missed payments, accrued interest, or escrow advances
or out-of-pocket expenses to third parties were added to the balance—were more
likely to redefault than those whose principal balance was cut.63 Of homeowners
who received a HAMP permanent modification, 87% did not see their unpaid
mortgage balance decrease or saw it increase; between 26% and 35% of these
homeowners redefaulted. Table 3.14 shows principal balance changes and
redefault rates.

TABLE 3.14
 CHANGE IN PRINCIPAL BALANCE OWED AND REDEFAULT RATE FOR
 HAMP PERMANENT MODIFICATIONS, Cumulative AS OF 4/30/2013
 Change in Principal Balance Owed                                                                 Redefault Rate
 Increased by 25 or more percentage points                                                                        35%
 Increased by 10 to less than 25 percentage points                                                                36%
 Increased by 0 to less than 10 percentage points                                                                 26%
 Decreased                                                                                                        14%
 Note: A “change” that results in “increased” unpaid principal balance for homeowners may have been caused by
 servicers adding missed payments, accrued interest, or escrow advances or out-of-pocket expenses to third parties to
 the homeowners mortgage balance as part of a HAMP permanent modification.

 Source: SIGTARP analysis of Treasury HAMP data.
24   special inspector general I troubled asset relief program




                                            Credit Score
                                            Homeowners who received a HAMP permanent modification were more than
                                            twice as likely to redefault if they had a subprime credit score.64 A credit score
                                            usually ranges from 300 to 850 and reflects an individual’s credit risk based on his
                                            or her credit history and credit performance. Among other uses, it can help predict
                                            how an individual will likely perform on existing or new credit, such as a mortgage.
                                            It also can help lenders determine, based on risk, the cost of extending credit, such
                                            as a mortgage, to a homeowner. Mortgage lenders generally consider scores of 620
                                            or more as prime, and those below 620 as subprime.
                                                Homeowners with a HAMP permanent modification who had a higher credit
                                            score were more likely to stay in a HAMP modification than those with a low credit
                                            score. Of all homeowners who received a HAMP permanent modification, 71% had
                                            a credit score below 620 (subprime) and 29% had a credit score of 620 or higher
                                            (prime). HAMP was structured to help homeowners who were already in default
                                            or in imminent danger of default, so their credit scores were unlikely to be strong
                                            because missing a mortgage payment damages a credit score. Of homeowners with
                                            credit scores below 620, 31% redefaulted on their HAMP permanent modification.
                                            Of homeowners with credit scores of 620 or above, 15% redefaulted. Table 3.15
                                            shows credit scores and redefault rates.
                                            TABLE 3.15
                                             CREDIT SCORE AND REDEFAULT RATE FOR HAMP PERMANENT
                                             MODIFICATIONS, Cumulative AS OF 4/30/2013
                                             Credit Score                                                        Redefault Rate
                                             Less than 620 (subprime)                                                      31%
                                             620 or greater (prime)                                                        15%
                                             Note: Analysis based on records where credit score was available.

                                             Source: SIGTARP analysis of Treasury HAMP data.



                                            How Many Years the Homeowner Had the Mortgage
                                            For the most part, the fewer years homeowners had their mortgage prior to
                                            receiving a HAMP permanent modification, the more likely they were to
                                            redefault.65 Of homeowners who received a HAMP permanent modification,
                                            61% had their mortgage for less than five years before HAMP, and 39% had their
                                            mortgage for five or more years before HAMP. Of homeowners who had their
                                            mortgage for less than five years before HAMP, 30% redefaulted on their HAMP
                                            permanent modification. Of homeowners who had their mortgage for five years
                                            or more before HAMP, 16% redefaulted on their HAMP permanent modification.
                                            Table 3.16 shows how long a homeowner had his or her mortgage before receiving
                                            a HAMP permanent modification and the redefault rate.
                                                                                       quarterly report to congress I July 24, 2013           25




TABLE 3.16
 HOW MANY YEARS THE HOMEOWNER HAD THE MORTGAGE
 BEFORE MODIFICATION AND REDEFAULT RATE FOR HAMP
 PERMANENT MODIFICATIONS, cumulative AS OF 4/30/2013
 Years Homeowner
 Had Mortgage                                                         Redefault Rate
 Fewer than 5 years                                                             30%
 5 or more years                                                                16%
 Note: Analysis based on records where mortgage data was available.

 Source: SIGTARP analysis of Treasury HAMP data.




SIGTARP Recommendations on HAMP
Redefaults
Almost since the beginning of HAMP, SIGTARP has recognized and has warned
about the danger of redefaults, urging Treasury to change the program to ensure
that modifications are sustainable. Now that there are more than two years left for
homeowners to apply for HAMP modifications, opportunities remain for Treasury
to improve HAMP. Following the issuance of our April 2013 recommendations,
Federal lawmakers including U.S. Senator Elizabeth Warren, U.S. Representative
Elijah J. Cummings, and U.S. Representative Robin Kelly have written to Treasury
supporting SIGTARP’s recommendations.66
    In March 2010, SIGTARP issued an audit report on HAMP that included                             For more on SIGTARP’s 2010
specific warnings to Treasury about the potential for HAMP redefaults. The                          recommendations on redefaults, see:
report included a formal recommendation that Treasury “re-examine the program’s                     • SIGTARP’s audit report, “Factors
structure to ensure that the program is adequately minimizing the risk of                              Affecting Implementation of the Home
re-default.” To date, Treasury has only partially implemented SIGTARP’s March                          Affordable Modification Program,”
                                                                                                       March 25, 2010.
2010 recommendation, by adopting some programs that address concerns about
                                                                                                    • SIGTARP Quarterly Report, April
negative equity, a factor in some redefaults, but has not addressed other factors.
                                                                                                       2010, pages 134-135.
    SIGTARP is concerned that homeowners are redefaulting on HAMP
                                                                                                    • SIGTARP Quarterly Report, July
permanent modifications at an alarming rate. On April 1, 2013, SIGTARP made                            2010, pages 171-180.
four new, specific recommendations to curb redefaults and protect homeowners
from losing their homes. Treasury recently agreed to implement SIGTARP’s
recommendations regarding redefaults.67

  These are SIGTARP’s April 2013 recommendations to Treasury regarding
HAMP redefaults:

•	 Treasury should conduct in-depth research and analysis to determine the
   causes of redefaults of HAMP permanent mortgage modifications and
   the characteristics of loans or the homeowner that may be more at risk
   for redefault. Treasury should require servicers to submit any additional
   information that Treasury needs to conduct this research and analysis.
26   special inspector general I troubled asset relief program




                                               Treasury should make the results of this analysis public and issue findings
                                               based on this analysis, so that others can examine, build on, and learn from
                                               this research.
                                            •	 As a result of the findings of Treasury’s research and analysis into the
                                               causes of HAMP redefaults, and characteristics of redefaults, Treasury
                                               should modify aspects of HAMP and the other TARP housing programs in
                                               ways to reduce the number of redefaults.
                                            •	 Treasury should require servicers to develop and use an “early warning
                                               system” to identify and reach out to homeowners that may be at risk of
                                               redefaulting on a HAMP mortgage modification, including providing or
                                               recommending counseling and other assistance and directing them to other
                                               TARP housing programs.
                                            •	 In the letter Treasury already requires servicers to send to homeowners
                                               who have redefaulted on a HAMP modification about possible options to
                                               foreclosure, Treasury should require the servicers to include other available
                                               alternative assistance options under TARP such as the Hardest Hit Fund
                                               and HAMP Tier 2, so that homeowners can move forward with other
                                               alternatives, if appropriate, in a timely and fully informed manner. To the
                                               extent that a servicer does not follow Treasury’s rules in this area, Treasury
                                               should permanently withhold incentives from that servicer.

                                               Once fully implemented by Treasury, these recommendations would help
                                            ensure that homeowners who receive HAMP permanent mortgage modifications
                                            have affordable and sustainable mortgages and remain in their homes.
               Endnotes
                                                                                         quarterly report to congress I July 24, 2013             27


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110–343, 10/3/2008, Section 103.
2.	    Treasury, response to SIGTARP data call, 5/23/2013; Fannie Mae, response to SIGTARP data call, 5/22/2013; Treasury, “Making Home
       Affordable, Program Performance Report Through May 2013,” 7/12/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
       May%202013%20MHA%20Report%20Final.pdf, accessed 7/15/2013; OCC, “Mortgage Metrics Report, First Quarter 2013,” 6/27/2013, www.
       occ.treas.gov/publications/publications-by-type/other-publications-reports/mortgage-metrics-2013/mortgage-metrics-q1-2013.pdf, accessed
       7/1/2013.
3.	    Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
4.	    Treasury, “HAMP Redefault Tables 1-16-May 2013,” accessed, 6/27/2013.
5.	    Treasury, responses to SIGTARP data calls, 5/23/2013 and 6/5/2013.
6.	    Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
7.	    Emergency Economic Stabilization Act of 2008, P.L. 110–343, 10/3/2008, Section 109(a).
8.	    U.S. Congress, Congressional Record – House, 10/3/08, p. H10771, www.gpo.gov/fdsys/pkg/CREC-2008-10-03/pdf/CREC-2008-10-03-pt1-
       PgH10712-2.pdf#page=59, accessed 2/25/2013; and U.S. Congress, Congressional Record – Senate, 10/1/08, p.S10252, www.gpo.gov/fdsys/
       pkg/CREC-2008-10-01/pdf/CREC-2008-10-01-pt1-PgS10220-2.pdf#page=33, accessed 2/25/2013.
9.	    Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.
       com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/15/2013.
10.	   Treasury, response to SIGTARP data call, 7/10/2013
11.	   Treasury, “Supplemental Directive 13-04: Making Home Affordable Program – MHA Program Extension and Enhancements,” 6/13/2013,
       https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1304.pdf, accessed 7/1/2013; Treasury. “Making Home Affordable Program,
       Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.com/portal/programs/docs/hamp_servicer/
       mhahandbook_42.pdf, accessed 7/1/2013.
12.	   Treasury, response to SIGTARP data call, 5/23/2013; Fannie Mae, response to SIGTARP data call, 5/22/2013.
13.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to
       SIGTARP data calls, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress,
       1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
14.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to
       SIGTARP data call, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress,
       1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
15.	   Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
16.	   Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
17.	   Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013; Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012,
       1/22/2013, 2/28/2013, 4/19/2013, and 5/23/2013; Fannie Mae, response to SIGTARP data call, 4/19/2013 and 5/22/2013; SIGTARP, Quarterly
       Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012;
       SIGTARP Quarterly Report to Congress, 1/30/2013.
18.	   Treasury, “HAMP Redefault Tables 1-16-May2013,” accessed 6/27/2013.
19.	   Treasury, response to SIGTARP data call, 5/23/2013.
20.	   SIGTARP analysis of Treasury HAMP data.
21.	   Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
22.	   Treasury, response to SIGTARP data call, 6/17/2013.
23.	   Treasury, response to SIGTARP data calls, 5/23/2013 and 6/5/2013.
24.	   Treasury, response to SIGTARP data call, 7/10/2013.
25.	   Treasury, response to SIGTARP data call, 7/10/2013.
26.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, https://www.hmpadmin.
       com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/15/2013.
27.	   Treasury, response to SIGTARP data call, 6/5/2013.
28.	   Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae,
       responses to SIGTARP vetting draft, 7/11/2013 and 7/16/2013.
29.	   Treasury, response to SIGTARP data call, 6/5/2013; Treasury, responses to SIGTARP vetting draft, 7/12/2013 and 7/16/2013; Fannie Mae,
       responses to SIGTARP vetting draft, 7/11/2013 and 7/16/2013.
30.	   OCC, “Mortgage Metrics Report, First Quarter 2013,” 6/27/2013, www.occ.treas.gov/publications/publications-by-type/other-publications-
       reports/mortgage-metrics-2013/mortgage-metrics-q1-2013.pdf, accessed 7/1/2013.
31.	   Treasury, meeting, 5/1/2012; Treasury, response to SIGTARP vetting draft, 5/12/2013.
32.	   Treasury, “Making Home Affordable, Program Performance Report Through May 2013,” 7/12/2013, www.treasury.gov/initiatives/financial-
       stability/reports/Documents/May%202013%20MHA%20Report%20Final.pdf, accessed 7/15/2013.
33.	   SIGTARP, Hotline.
34.	   Senior Attorney, Fair Housing Law Project, A program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
35.	   Managing Attorney, Fair Lending and Foreclosure Prevention Project, Connecticut Fair Housing Center, Hartford, Connecticut, 5/23/2013.
36.	   Senior Attorney, Fair Housing Law Project, A program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
37.	   SIGTARP, Hotline.
38.	   SIGTARP, Hotline.
39.	   Staff Attorney, Mississippi Center for Justice, Jackson, Mississippi, 5/22/2013.
40.	   Senior Attorney, Fair Housing Law Project, a program of the Law Foundation of Silicon Valley, San Jose, California, 5/22/2013.
41.	   SIGTARP, Hotline.
42.	   Managing Attorney, Fair Lending and Foreclosure Prevention Project, Connecticut Fair Housing Center, Hartford, Connecticut, 5/23/2013.
43.	   SIGTARP, Hotline.
28            special inspector general I troubled asset relief program



     44.	   Staff Attorney, Mississippi Center for Justice, Jackson, Mississippi, 5/22/2013.
     45.	   Staff Attorney, Consumer & Housing Project, North Carolina Justice Center, Raleigh, North Carolina,5/31/2013.
     46.	   RealtyTrac, “U.S. Foreclosure Activity Decreases 14 Percent in June to Lowest Level Since December 2006 Despite 34 Percent Jump in Judicial
            Scheduled Foreclosure Auctions,” 7/9/2013, www.realtytrac.com/content/foreclosure-market-report/midyear-2013-us-foreclosure-market-
            report-7794, accessed 7/18/2013.
     47.	   SIGTARP analysis of Treasury HAMP data.
     48.	   SIGTARP analysis of Treasury HAMP data.
     49.	   SIGTARP analysis of Treasury HAMP data.
     50.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013; SIGTARP, “Quarterly Report to Congress,” 1/20/2013, p.57,
            www.sigtarp.gov/Quarterly%20Reports/January_30_2013_Report_to_Congress.pdf, accessed 2/27/2013; and Treasury, “Making Home Affordable
            Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/ portal/programs/docs/hamp_servicer/
            mhahandbook_41.pdf, accessed 1/2/2013.
     51.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
     52.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
     53.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
     54.	   SIGTARP analysis of Treasury HAMP data.
     55.	   SIGTARP analysis of Treasury HAMP data.
     56.	   SIGTARP analysis of Treasury HAMP data.
     57.	   SIGTARP analysis of Treasury HAMP data.
     58.	   Treasury, “Hardest Hit Fund State-by-State Information,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Pages/
            Program-Documents.aspx, accessed 7/16/2013.
     59.	   Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
     60.	   Treasury, response to SIGTARP vetting draft, 7/12/2013; Fannie Mae, response to SIGTARP vetting draft, 7/11/2013; Treasury, “Making Home
            Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.hmpadmin.com/portal/programs/docs/hamp_
            servicer/mhahandbook_42.pdf, accessed 7/16/2013.
     61.	   SIGTARP analysis of Treasury HAMP data.
     62.	   SIGTARP analysis of Treasury HAMP data.
     63.	   SIGTARP analysis of Treasury HAMP data; Treasury, response to SIGTARP vetting draft, 7/12/2013; Fannie Mae, response to SIGTARP vetting
            draft, 7/11/2013; Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.2,” 5/1/2013, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_42.pdf, accessed 7/16/2013.
     64.	   SIGTARP analysis of Treasury HAMP data.
     65.	   SIGTARP analysis of Treasury HAMP data.
     66.	   U.S. Senator Elizabeth Warren and U.S. Representative Elijah E. Cummings, letter, 5/16/2013; U.S. Representative Robin Kelly, letter,
            5/9/2013.
     67.	   Treasury, letter from Timothy G. Massad, “Treasury Response to SIGTARP HAMP Default Recommendations,” 7/5/2013.
TABLE F.2                                                                                                                                                                                                                                                               30
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, AS THEY AGED, AS OF 4/30/2013
                           3 Months After Modification                 12 Months (1 Year) After Modification           24 Months (2 Years) After Modification           36 Months (3 Years) After Modification          42 Months (3.5 Years) After Modification

Modification       Permanent Redefaulted               Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault Permanent Redefaulted                  Redefault
Year              Modifications Modifications              Rate Modifications Modifications                 Rate Modifications Modifications                 Rate Modifications Modifications                 Rate Modifications Modifications                 Rate

2009Q3                     3,567             112            3.1%            4,654             952          20.5%            5,101            1,698           33.3%            5,207           2,163           41.5%            5,086           2,345           46.1%

2009Q4                   44,018              632            1.4%          51,784            7,881          15.2%           56,108          15,805            28.2%           56,974          21,062           37.0%           30,126          12,489           41.5%

2010Q1                  124,541            1,167            0.9%         162,777           25,907          15.9%          170,143          49,277            29.0%         168,312           63,501           37.7%                                                 

2010Q2                  148,880            2,050            1.4%         175,409           27,947          15.9%          181,263          52,404            28.9%         129,829           49,471           38.1%                                                 

2010Q3                   86,420            1,203            1.4%         104,636           14,811          14.2%          106,999          28,619            26.7%                                                                                                  

2010Q4                   58,074              815            1.4%          65,107            9,240          14.2%           66,524          17,589            26.4%                                                                                                  

2011Q1                   71,202              573            0.8%          79,982           10,703          13.4%           81,334          20,183            24.8%                                                                                                  

2011Q2                   80,255              819            1.0%          93,167           12,227          13.1%           59,532          15,026            25.2%                                                                                                  

2011Q3                   81,207              913            1.1%          87,351           10,747          12.3%                                                                                                                                                    

2011Q4                   65,130              697            1.1%          68,025            7,705          11.3%                                                                                                                                                    

2012Q1                   49,543              367            0.7%          51,007            5,472          10.7%                                                                                                                                                    

2012Q2                   44,061              361            0.8%          28,473            3,198          11.2%                                                                                                                                                    
                                                                                                                                                                                                                                                                        Appendix F I HAMP Modification Statistics I JULY 24, 2013




2012Q3                   47,446              454            1.0%                                                                                                                                                                                                    

2012Q4                   39,524              340            0.9%                                                                                                                                                                                                    

2013Q1                   26,002              179            0.7%                                                                                                                                                                                                    

Total
Permanent
Modifications
with Valid
Records                969,870           10,682                         972,372         136,790                          727,004         200,601                           360,322         136,197                           35,212          14,834                 

Total
Permanent
Modifications
Missing/Invalid
Records                185,027                                            44,090                                           12,512                                             6,147                                              507                                

Total
Permanent
Modifications
Paid Off                    453                                            2,365                                            4,756                                             5,419                                              686                                

Total
Permanent
Modifications        1,155,350                                         1,018,827                                         744,272                                           371,888                                           36,405                                 

 Note: Treasury reports redefault data on HAMP permanent modifications that have aged at least three months, hence, this table does not include data on around 30,236 modifications made during the months of February, March, and April of 2013; Treasury calculates
 the percentage of HAMP permanant modifications that redefaulted by dividing the number of redefaulted permanent modifications by the total number of permanent modifications with valid records.

 Source: Treasury, “HAMP Redefault Tables 1-16 – May 2013,” accessed 6/27/2013.
                                                                        HAMP Modification Statistics I Appendix F I JULY 24, 2013   31



TABLE F.3
 redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
 STATISTICAL AREA, Cumulative AS OF 4/30/2013
                                              Permanent             Active    Redefaulted        Redefault
 MSA Name                                    Modifications   Modifications   Modifications           Rate
 Abilene, TX MSA                                       47              29                15            32%
 Aguadilla-Isabela-San Sebastian, PR MSA              139             113                20            14%
 Akron, OH MSA                                      1,961           1,447               484            25%
 Albany, GA MSA                                       201             122                77            38%
 Albany-Schenectady-Troy, NY MSA                    1,276             872               389            30%
 Albuquerque, NM MSA                                2,622           1,865               720            27%
 Alexandria, LA MSA                                   115              68                43            37%
 Allentown-Bethlehem-Easton, PA-NJ MSA              3,051           2,026               991            32%
 Altoona, PA MSA                                      104              66                36            35%
 Amarillo, TX MSA                                      96              60                29            30%
 Ames, IA MSA                                          42              24                15            36%
 Anchorage, AK MSA                                    445             322               106            24%
 Anderson, IN MSA                                     236             158                77            33%
 Anderson, SC MSA                                     414             271               128            31%
 Ann Arbor, MI MSA                                    990             755               216            22%
 Anniston-Oxford, AL MSA                              125              74                44            35%
 Appleton, WI MSA                                     288             199                81            28%
 Asheville, NC MSA                                  1,064             740               302            28%
 Athens-Clarke County, GA MSA                         455             328               123            27%
 Atlanta-Sandy Springs-Marietta, GA MSA            35,363          24,914           10,132             29%
 Atlantic City-Hammonton, NJ MSA                    1,883           1,217               645            34%
 Auburn-Opelika, AL MSA                               177             120                53            30%
 Augusta-Richmond County, GA-SC MSA                   710             511               186            26%
 Austin-Round Rock-San Marcos, TX MSA               2,234           1,604               581            26%
 Bakersfield-Delano, CA MSA                         6,871           5,186             1,624            24%
 Baltimore-Towson, MD MSA                          12,514           8,629             3,741            30%
 Bangor, ME MSA                                       277             169               105            38%
 Barnstable Town, MA MSA                            1,484           1,077               386            26%
 Baton Rouge, LA MSA                                1,679           1,092               569            34%
 Battle Creek, MI MSA                                 339             233               103            30%
 Bay City, MI MSA                                     220             162                55            25%
 Beaumont-Port Arthur, TX MSA                         205             140                62            30%
 Bellingham, WA MSA                                   501             379               113            23%
 Bend, OR MSA                                       1,092             789               286            26%
 Billings, MT MSA                                     119              79                33            28%
 Binghamton, NY MSA                                   167             120                45            27%
 Birmingham-Hoover, AL MSA                          2,665           1,740               875            33%
 Bismarck, ND MSA                                      41              26                12            29%
 Blacksburg-Christiansburg-Radford, VA MSA            117              80                31            26%
 Bloomington, IN MSA                                  190             143                39            21%
                                                                                   Continued on next page
32   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                          STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                             Permanent             Active    Redefaulted     Redefault
                          MSA Name                                          Modifications   Modifications   Modifications        Rate
                          Bloomington-Normal, IL MSA                                 151             106              39          26%
                          Boise City-Nampa, ID MSA                                 2,633           1,932             667          25%
                          Boston-Cambridge-Quincy, MA-NH MSA                      20,231          14,882           5,083          25%
                          Boulder, CO MSA                                            530             433              85          16%
                          Bowling Green, KY MSA                                      116              78              35          30%
                          Bremerton-Silverdale, WA MSA                               733             521             206          28%
                          Bridgeport-Stamford-Norwalk, CT MSA                      4,877           3,656           1,189          24%
                          Brownsville-Harlingen, TX MSA                              377             271             102          27%
                          Brunswick, GA MSA                                          194             137              55          28%
                          Buffalo-Niagara Falls, NY MSA                            1,045             730             298          29%
                          Burlington, NC MSA                                         312             222              80          26%
                          Burlington-South Burlington, VT MSA                        337             257              70          21%
                          Canton-Massillon, OH MSA                                   964             699             253          26%
                          Cape Coral-Fort Myers, FL MSA                            4,387           3,095           1,236          28%
                          Cape Girardeau-Jackson, MO MSA                              85              63              20          24%
                          Carson City, NV MSA                                        336             234              96          29%
                          Casper, WY MSA                                             108              80              25          23%
                          Cedar Rapids, IA MSA                                       262             158              98          37%
                          Champaign-Urbana, IL MSA                                   151              95              50          33%
                          Charleston, WV MSA                                         162             115              44          27%
                          Charleston-North Charleston-Summerville, SC MSA          2,394           1,653             699          29%
                          Charlotte-Gastonia-Rock Hill, NC-SC MSA                  6,878           4,776           2,007          29%
                          Charlottesville, VA MSA                                    482             346             128          27%
                          Chattanooga, TN-GA MSA                                   1,034             692             316          31%
                          Cheyenne, WY MSA                                           108              75              30          28%
                          Chicago-Joliet-Naperville, IL-IN-WI MSA                 60,874          43,345          17,100          28%
                          Chico, CA MSA                                              928             709             211          23%
                          Cincinnati-Middletown, OH-KY-IN MSA                      4,523           3,103           1,364          30%
                          Clarksville, TN-KY MSA                                     179             110              62          35%
                          Cleveland, TN MSA                                          183             119              57          31%
                          Cleveland-Elyria-Mentor, OH MSA                          6,492           4,627           1,797          28%
                          Coeur d’Alene, ID MSA                                      541             397             134          25%
                          College Station-Bryan, TX MSA                               98              63              28          29%
                          Colorado Springs, CO MSA                                 1,676           1,252             385          23%
                          Columbia, MO MSA                                           127              79              45          35%
                          Columbia, SC MSA                                         1,883           1,255             600          32%
                          Columbus, GA-AL MSA                                        537             369             161          30%
                          Columbus, IN MSA                                            86              52              29          34%
                          Columbus, OH MSA                                         4,049           2,823           1,170          29%
                          Corpus Christi, TX MSA                                     274             186              81          30%
                          Corvallis, OR MSA                                           82              65              15          18%
                                                                                                                 Continued on next page
                                                                        HAMP Modification Statistics I Appendix F I JULY 24, 2013   33



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                              Permanent             Active    Redefaulted        Redefault
MSA Name                                     Modifications   Modifications   Modifications           Rate
Crestview-Fort Walton Beach-Destin, FL MSA            511             345               158            31%
Cumberland, MD-WV MSA                                 108              79                28            26%
Dallas-Fort Worth-Arlington, TX MSA                11,112           7,671             3,250            29%
Dalton, GA MSA                                        408             284               122            30%
Danville, IL MSA                                       34              17                17            50%
Danville, VA MSA                                      112              78                33            29%
Davenport-Moline-Rock Island, IA-IL MSA               419             275               133            32%
Dayton, OH MSA                                      1,609           1,114               484            30%
Decatur, AL MSA                                       137              98                37            27%
Decatur, IL MSA                                        58              37                21            36%
Deltona-Daytona Beach-Ormond Beach, FL MSA          3,911           2,658             1,222            31%
Denver-Aurora, CO MSA                               9,974           7,572             2,186            22%
Des Moines-West Des Moines, IA MSA                  1,154             768               359            31%
Detroit-Warren-Livonia, MI MSA                     21,372          15,525             5,512            26%
Dothan, AL MSA                                        132              92                39            30%
Dover, DE MSA                                         694             434               253            36%
Dubuque, IA MSA                                        83              51                26            31%
Duluth, MN-WI MSA                                     534             375               151            28%
Durham, NC MSA                                      1,002             708               282            28%
Eau Claire, WI MSA                                    196             127                61            31%
El Centro, CA MSA                                   1,218             900               307            25%
Elizabethtown, KY MSA                                  74              55                16            22%
Elkhart-Goshen, IN MSA                                499             361               130            26%
Elmira, NY MSA                                         73              47                26            36%
El Paso, TX MSA                                       964             707               240            25%
Erie, PA MSA                                          230             158                68            30%
Eugene-Springfield, OR MSA                            948             700               227            24%
Evansville, IN-KY MSA                                 343             233               100            29%
Fairbanks, AK MSA                                      47              27                15            32%
Fajardo, PR MSA                                        65              53                11            17%
Fargo, ND-MN MSA                                      137              95                35            26%
Farmington, NM MSA                                     90              62                25            28%
Fayetteville, NC MSA                                  427             284               135            32%
Fayetteville-Springdale-Rogers, AR-MO MSA           1,035             707               300            29%
Flagstaff, AZ MSA                                     282             184                93            33%
Flint, MI MSA                                       1,483           1,056               406            27%
Florence, SC MSA                                      338             214               120            36%
Florence-Muscle Shoals, AL MSA                        118              76                36            31%
Fond du Lac, WI MSA                                   124              83                38            31%
Fort Collins-Loveland, CO MSA                         681             521               139            20%
Fort Smith, AR-OK MSA                                 175             128                40            23%
                                                                                   Continued on next page
34   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                          STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                          Permanent             Active    Redefaulted     Redefault
                          MSA Name                                       Modifications   Modifications   Modifications        Rate
                          Fort Wayne, IN MSA                                      650             464             173          27%
                          Fresno, CA MSA                                        7,238           5,421           1,754          24%
                          Gadsden, AL MSA                                         125              88              35          28%
                          Gainesville, FL MSA                                     518             372             145          28%
                          Gainesville, GA MSA                                     959             711             241          25%
                          Glens Falls, NY MSA                                     251             170              73          29%
                          Goldsboro, NC MSA                                       116              72              43          37%
                          Grand Forks, ND-MN MSA                                   49              35              10          20%
                          Grand Junction, CO MSA                                  464             333             124          27%
                          Grand Rapids-Wyoming, MI MSA                          2,168           1,578             560          26%
                          Great Falls, MT MSA                                      59              41              17          29%
                          Greeley, CO MSA                                         924             700             205          22%
                          Green Bay, WI MSA                                       473             325             141          30%
                          Greensboro-High Point, NC MSA                         1,877           1,275             579          31%
                          Greenville, NC MSA                                      276             179              94          34%
                          Greenville-Mauldin-Easley, SC MSA                     1,418             982             410          29%
                          Guayama, PR MSA                                          34              28               6          18%
                          Gulfport-Biloxi, MS MSA                                 439             263             167          38%
                          Hagerstown-Martinsburg, MD-WV MSA                     1,368             910             443          32%
                          Hanford-Corcoran, CA MSA                                750             557             181          24%
                          Harrisburg-Carlisle, PA MSA                             762             520             231          30%
                          Harrisonburg, VA MSA                                    192             138              50          26%
                          Hartford-West Hartford-East Hartford, CT MSA          4,142           2,874           1,213          29%
                          Hattiesburg, MS MSA                                     180             122              54          30%
                          Hickory-Lenoir-Morganton, NC MSA                        802             556             224          28%
                          Hinesville-Fort Stewart, GA MSA                          74              49              25          34%
                          Holland-Grand Haven, MI MSA                             605             440             152          25%
                          Honolulu, HI MSA                                      2,126           1,587             482          23%
                          Hot Springs, AR MSA                                     114              76              34          30%
                          Houma-Bayou Cane-Thibodaux, LA MSA                      196             138              53          27%
                          Houston-Sugar Land-Baytown, TX MSA                   11,846           8,325           3,376          28%
                          Huntington-Ashland, WV-KY-OH MSA                        186             125              56          30%
                          Huntsville, AL MSA                                      474             302             165          35%
                          Idaho Falls, ID MSA                                     240             161              73          30%
                          Indianapolis-Carmel, IN MSA                           3,936           2,685           1,187          30%
                          Iowa City, IA MSA                                        85              62              19          22%
                          Ithaca, NY MSA                                           35              26               9          26%
                          Jackson, MI MSA                                         496             358             125          25%
                          Jackson, MS MSA                                       1,250             761             472          38%
                          Jackson, TN MSA                                         201             130              70          35%
                          Jacksonville, FL MSA                                  7,784           5,199           2,509          32%
                                                                                                              Continued on next page
                                                                          HAMP Modification Statistics I Appendix F I JULY 24, 2013   35



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                Permanent             Active    Redefaulted        Redefault
MSA Name                                       Modifications   Modifications   Modifications           Rate
Jacksonville, NC MSA                                    121              82                37            31%
Janesville, WI MSA                                      474             301               165            35%
Jefferson City, MO MSA                                  136              87                44            32%
Johnson City, TN MSA                                    194             129                63            32%
Johnstown, PA MSA                                        67              41                25            37%
Jonesboro, AR MSA                                        56              38                15            27%
Joplin, MO MSA                                          169             103                54            32%
Kalamazoo-Portage, MI MSA                               682             481               195            29%
Kankakee-Bradley, IL MSA                                335             211               119            36%
Kansas City, MO-KS MSA                                4,439           2,998             1,357            31%
Kennewick-Pasco-Richland, WA MSA                        257             205                44            17%
Killeen-Temple-Fort Hood, TX MSA                        165             120                45            27%
Kingsport-Bristol-Bristol, TN-VA MSA                    255             189                62            24%
Kingston, NY MSA                                        692             505               182            26%
Knoxville, TN MSA                                     1,235             827               377            31%
Kokomo, IN MSA                                          184             131                48            26%
La Crosse, WI-MN MSA                                    118              73                39            33%
Lafayette, IN MSA                                       183             139                39            21%
Lafayette, LA MSA                                       337             215               112            33%
Lake Charles, LA MSA                                    191             134                56            29%
Lake Havasu City-Kingman, AZ MSA                      1,121             794               309            28%
Lakeland-Winter Haven, FL MSA                         3,511           2,371             1,110            32%
Lancaster, PA MSA                                       807             536               249            31%
Lansing-East Lansing, MI MSA                          1,202             841               350            29%
Laredo, TX MSA                                          381             271               106            28%
Las Cruces, NM MSA                                      268             198                63            24%
Las Vegas-Paradise, NV MSA                           22,760          15,451             7,102            31%
Lawrence, KS MSA                                        124              87                33            27%
Lawton, OK MSA                                           68              45                23            34%
Lebanon, PA MSA                                         181             113                61            34%
Lewiston, ID-WA MSA                                      73              53                16            22%
Lewiston-Auburn, ME MSA                                 250             172                75            30%
Lexington-Fayette, KY MSA                               587             408               168            29%
Lima, OH MSA                                            148             101                45            30%
Lincoln, NE MSA                                         289             193                86            30%
Little Rock-North Little Rock-Conway, AR MSA            785             505               264            34%
Logan, UT-ID MSA                                        169             120                43            25%
Longview, TX MSA                                         93              58                31            33%
Longview, WA MSA                                        343             242                94            27%
Los Angeles-Long Beach-Santa Ana, CA MSA             87,612          71,973           14,997             17%
Louisville/Jefferson County, KY-IN MSA                2,410           1,597               770            32%
                                                                                     Continued on next page
36   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                          STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                                Permanent             Active    Redefaulted     Redefault
                          MSA Name                                             Modifications   Modifications   Modifications        Rate
                          Lubbock, TX MSA                                               116              79              35          30%
                          Lynchburg, VA MSA                                             320             235              81          25%
                          Macon, GA MSA                                                 605             405             194          32%
                          Madera, CA MSA                                              1,421           1,070             331          23%
                          Madison, WI MSA                                               907             619             264          29%
                          Manchester-Nashua, NH MSA                                   1,725           1,216             484          28%
                          Manhattan, KS MSA                                              60              42              13          22%
                          Mankato-North Mankato, MN MSA                                 131              87              41          31%
                          Mansfield, OH MSA                                             229             156              65          28%
                          Mayaguez, PR MSA                                               68              54              12          18%
                          McAllen-Edinburg-Mission, TX MSA                              854             615             232          27%
                          Medford, OR MSA                                             1,029             752             266          26%
                          Memphis, TN-MS-AR MSA                                       5,009           3,217           1,739          35%
                          Merced, CA MSA                                              2,109           1,597             497          24%
                          Miami-Fort Lauderdale-Pompano Beach, FL MSA                60,308          46,314          13,521          22%
                          Michigan City-La Porte, IN MSA                                261             184              73          28%
                          Midland, TX MSA                                                54              39              11          20%
                          Milwaukee-Waukesha-West Allis, WI MSA                       4,401           2,975           1,372          31%
                          Minneapolis-St. Paul-Bloomington, MN-WI MSA                15,758          11,179           4,377          28%
                          Missoula, MT MSA                                              196             149              43          22%
                          Mobile, AL MSA                                                872             558             304          35%
                          Modesto, CA MSA                                             5,771           4,359           1,362          24%
                          Monroe, LA MSA                                                165             110              53          32%
                          Monroe, MI MSA                                                643             472             158          25%
                          Montgomery, AL MSA                                            617             389             216          35%
                          Morgantown, WV MSA                                             39              29               6          15%
                          Morristown, TN MSA                                            228             162              63          28%
                          Mount Vernon-Anacortes, WA MSA                                401             283             112          28%
                          Muncie, IN MSA                                                126              88              36          29%
                          Muskegon-Norton Shores, MI MSA                                483             339             133          28%
                          Myrtle Beach-North Myrtle Beach-Conway, SC MSA              1,197             834             353          29%
                          Napa, CA MSA                                                  908             745             158          17%
                          Naples-Marco Island, FL MSA                                 2,097           1,517             549          26%
                          Nashville-Davidson-Murfreesboro-Franklin, TN MSA            3,780           2,508           1,198          32%
                          New Haven-Milford, CT MSA                                   4,018           2,729           1,259          31%
                          New Orleans-Metairie-Kenner, LA MSA                         3,167           2,117           1,003          32%
                          New York-Northern New Jersey-Long Island, NY-NJ-PA
                                                                                     76,922          57,834          18,445          24%
                          MSA
                          Niles-Benton Harbor, MI MSA                                   373             265              99          27%
                          North Port-Bradenton-Sarasota, FL MSA                       4,305           3,077           1,196          28%
                          Norwich-New London, CT MSA                                  1,064             725             333          31%
                                                                                                                    Continued on next page
                                                                             HAMP Modification Statistics I Appendix F I JULY 24, 2013   37



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                   Permanent             Active    Redefaulted        Redefault
MSA Name                                          Modifications   Modifications   Modifications           Rate
Ocala, FL MSA                                            1,939           1,341               579            30%
Ocean City, NJ MSA                                         425             282               139            33%
Odessa, TX MSA                                              41              28                12            29%
Ogden-Clearfield, UT MSA                                 1,474           1,008               420            28%
Oklahoma City, OK MSA                                    1,297             866               397            31%
Olympia, WA MSA                                            805             564               230            29%
Omaha-Council Bluffs, NE-IA MSA                          1,316             861               412            31%
Orlando-Kissimmee-Sanford, FL MSA                       21,781          15,306             6,259            29%
Oshkosh-Neenah, WI MSA                                     214             135                72            34%
Owensboro, KY MSA                                           79              51                23            29%
Oxnard-Thousand Oaks-Ventura, CA MSA                     5,994           5,027               917            15%
Palm Bay-Melbourne-Titusville, FL MSA                    3,604           2,506             1,056            29%
Palm Coast, FL MSA                                         968             693               263            27%
Panama City-Lynn Haven, FL MSA                             477             311               158            33%
Parkersburg-Marietta-Vienna, WV-OH MSA                     111              77                30            27%
Pascagoula, MS MSA                                         281             170               104            37%
Pensacola-Ferry Pass-Brent, FL MSA                       1,256             856               386            31%
Peoria, IL MSA                                             329             212               108            33%
Philadelphia-Camden-Wilmington, PA-NJ-DE-MD MSA         20,227          13,467             6,524            32%
Phoenix-Mesa-Glendale, AZ MSA                           39,049          26,866           11,612             30%
Pine Bluff, AR MSA                                          42              31                11            26%
Pittsburgh, PA MSA                                       2,740           1,938               750            27%
Pittsfield, MA MSA                                         181             127                51            28%
Pocatello, ID MSA                                          137              91                45            33%
Ponce, PR MSA                                              122             104                17            14%
Portland-South Portland-Biddeford, ME MSA                1,991           1,349               608            31%
Portland-Vancouver-Hillsboro, OR-WA MSA                  9,163           6,923             2,119            23%
Port St. Lucie, FL MSA                                   4,215           2,966             1,200            28%
Poughkeepsie-Newburgh-Middletown, NY MSA                 3,350           2,264             1,052            31%
Prescott, AZ MSA                                         1,185             852               315            27%
Providence-New Bedford-Fall River, RI-MA MSA             8,536           6,027             2,428            28%
Provo-Orem, UT MSA                                       2,269           1,699               516            23%
Pueblo, CO MSA                                             432             314               110            25%
Punta Gorda, FL MSA                                      1,004             711               277            28%
Racine, WI MSA                                             574             398               171            30%
Raleigh-Cary, NC MSA                                     2,678           1,814               802            30%
Rapid City, SD MSA                                         110              73                34            31%
Reading, PA MSA                                            970             674               282            29%
Redding, CA MSA                                            951             728               215            23%
Reno-Sparks, NV MSA                                      3,411           2,386               980            29%
Richmond, VA MSA                                         4,533           3,190             1,293            29%
                                                                                        Continued on next page
38   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                          STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                       Permanent             Active    Redefaulted     Redefault
                          MSA Name                                    Modifications   Modifications   Modifications        Rate
                          Riverside-San Bernardino-Ontario, CA MSA          57,658          43,316          13,830          24%
                          Roanoke, VA MSA                                      535             362             161          30%
                          Rochester, MN MSA                                    329             224             102          31%
                          Rochester, NY MSA                                  1,102             745             335          30%
                          Rockford, IL MSA                                   1,110             707             392          35%
                          Rocky Mount, NC MSA                                  257             152             104          40%
                          Rome, GA MSA                                         148             106              41          28%
                          Sacramento-Arden-Arcade-Roseville, CA MSA         19,479          14,617           4,625          24%
                          Saginaw-Saginaw Township North, MI MSA               354             265              84          24%
                          St. Cloud, MN MSA                                    422             281             127          30%
                          St. George, UT MSA                                   936             691             232          25%
                          St. Joseph, MO-KS MSA                                124              82              41          33%
                          St. Louis, MO-IL MSA                               8,445           5,579           2,736          32%
                          Salem, OR MSA                                      1,290             942             337          26%
                          Salinas, CA MSA                                    2,716           2,250             451          17%
                          Salisbury, MD MSA                                    403             260             138          34%
                          Salt Lake City, UT MSA                             4,990           3,690           1,194          24%
                          San Angelo, TX MSA                                    41              26              12          29%
                          San Antonio-New Braunfels, TX MSA                  2,439           1,695             700          29%
                          San Diego-Carlsbad-San Marcos, CA MSA             20,084          16,471           3,438          17%
                          Sandusky, OH MSA                                     173             120              51          29%
                          San Francisco-Oakland-Fremont, CA MSA             24,319          20,047           4,103          17%
                          San German-Cabo Rojo, PR MSA                          63              55               8          13%
                          San Jose-Sunnyvale-Santa Clara, CA MSA             7,881           6,731           1,078          14%
                          San Juan-Caguas-Guaynabo, PR MSA                   3,180           2,617             511          16%
                          San Luis Obispo-Paso Robles, CA MSA                1,301           1,084             203          16%
                          Santa Barbara-Santa Maria-Goleta, CA MSA           2,178           1,764             398          18%
                          Santa Cruz-Watsonville, CA MSA                     1,151           1,013             133          12%
                          Santa Fe, NM MSA                                     475             362             105          22%
                          Santa Rosa-Petaluma, CA MSA                        3,411           2,831             556          16%
                          Savannah, GA MSA                                     949             637             300          32%
                          Scranton-Wilkes-Barre, PA MSA                        932             643             276          30%
                          Seattle-Tacoma-Bellevue, WA MSA                   16,203          11,861           4,177          26%
                          Sebastian-Vero Beach, FL MSA                         934             634             292          31%
                          Sheboygan, WI MSA                                    173             116              54          31%
                          Sherman-Denison, TX MSA                              126              95              29          23%
                          Shreveport-Bossier City, LA MSA                      507             317             180          36%
                          Sioux City, IA-NE-SD MSA                             120              82              34          28%
                          Sioux Falls, SD MSA                                  201             130              58          29%
                          South Bend-Mishawaka, IN-MI MSA                      733             524             200          27%
                          Spartanburg, SC MSA                                  627             422             192          31%
                                                                                                           Continued on next page
                                                                              HAMP Modification Statistics I Appendix F I JULY 24, 2013   39



redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                    Permanent             Active    Redefaulted        Redefault
MSA Name                                           Modifications   Modifications   Modifications           Rate
Spokane, WA MSA                                           1,169             838               309            26%
Springfield, IL MSA                                         143              96                43            30%
Springfield, MA MSA                                       2,081           1,372               686            33%
Springfield, MO MSA                                         614             405               193            31%
Springfield, OH MSA                                         252             186                66            26%
State College, PA MSA                                       108              80                25            23%
Steubenville-Weirton, OH-WV MSA                             101              72                29            29%
Stockton, CA MSA                                          8,196           6,114             2,016            25%
Sumter, SC MSA                                              149              81                66            44%
Syracuse, NY MSA                                            516             354               152            29%
Tallahassee, FL MSA                                         964             650               300            31%
Tampa-St. Petersburg-Clearwater, FL MSA                  17,561          12,147             5,203            30%
Terre Haute, IN MSA                                         127              88                38            30%
Texarkana, TX-Texarkana, AR MSA                              56              41                14            25%
Toledo, OH MSA                                            1,804           1,217               564            31%
Topeka, KS MSA                                              204             133                65            32%
Trenton-Ewing, NJ MSA                                     1,185             772               400            34%
Tucson, AZ MSA                                            5,149           3,602             1,492            29%
Tulsa, OK MSA                                             1,037             680               329            32%
Tuscaloosa, AL MSA                                          248             166                75            30%
Tyler, TX MSA                                               166             101                57            34%
Utica-Rome, NY MSA                                          235             147                84            36%
Valdosta, GA MSA                                            144              92                51            35%
Vallejo-Fairfield, CA MSA                                 5,332           4,087             1,207            23%
Victoria, TX MSA                                             28              21                  6           21%
Vineland-Millville-Bridgeton, NJ MSA                        502             312               188            37%
Virginia Beach-Norfolk-Newport News, VA-NC MSA            5,275           3,590             1,608            30%
Visalia-Porterville, CA MSA                               3,189           2,396               766            24%
Waco, TX MSA                                                126              79                44            35%
Warner Robins, GA MSA                                       192             132                56            29%
Washington-Arlington-Alexandria, DC-VA-MD-WV MSA         38,549          28,853             9,240            24%
Waterloo-Cedar Falls, IA MSA                                154             111                40            26%
Wausau, WI MSA                                              157             109                47            30%
Wenatchee, WA MSA                                           222             150                69            31%
Wheeling, WV-OH MSA                                          85              57                27            32%
Wichita, KS MSA                                             567             359               190            34%
Wichita Falls, TX MSA                                        43              27                15            35%
Williamsport, PA MSA                                        100              71                24            24%
Wilmington, NC MSA                                        1,094             765               317            29%
Winchester, VA-WV MSA                                       701             495               196            28%
Winston-Salem, NC MSA                                     1,073             710               345            32%
                                                                                         Continued on next page
40   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          redefaulted HAMP PERMANENT MODIFICATIONS, ALPHABETICALLY BY METROPOLITAN
                          STATISTICAL AREA, Cumulative AS OF 4/30/2013 (Continued)
                                                                                                    Permanent                    Active          Redefaulted    Redefault
                          MSA Name                                                                 Modifications          Modifications         Modifications       Rate
                          Worcester, MA MSA                                                                   3,926                  2,687             1,201         31%
                          Yakima, WA MSA                                                                        278                     206               70         25%
                          Yauco, PR MSA                                                                           30                      29               1          3%
                          York-Hanover, PA MSA                                                                1,275                     828              435         34%
                          Youngstown-Warren-Boardman, OH-PA MSA                                                 935                     673              247         26%
                          Yuba City, CA MSA                                                                   1,236                     900              322         26%
                          Yuma, AZ MSA                                                                          987                     709              269         27%
                          Property is determined to be in a location that is not
                                                                                                            69,559                  48,304            19,957         29%
                          in any MSA
                          No Match Found                                                                            9                       6              3         33%
                          To Be Determined                                                                        53                        0             53        100%
                          Total                                                                       1,185,586                  865,100            306,538         26%
                          Notes: Includes GSE and non-GSE modifications. Of permanent modifications started, 13,948 loans have been paid off.

                          Source: Treasury, response to SIGTARP data call, 6/13/2013.
                                                                   HAMP Modification Statistics I Appendix F I JULY 24, 2013   41



TABLE F.4
 Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
 redefault rate, cumulative AS OF 4/30/2013
                                         Permanent             Active    Redefaulted        Redefault
 MSA Name                               Modifications   Modifications   Modifications           Rate
 Danville, IL MSA                                 34              17                17            50%
 Sumter, SC MSA                                  149              81                66            44%
 Rocky Mount, NC MSA                             257             152               104            40%
 Albany, GA MSA                                  201             122                77            38%
 Gulfport-Biloxi, MS MSA                         439             263               167            38%
 Bangor, ME MSA                                  277             169               105            38%
 Jackson, MS MSA                               1,250             761               472            38%
 Vineland-Millville-Bridgeton, NJ MSA            502             312               188            37%
 Cedar Rapids, IA MSA                            262             158                98            37%
 Alexandria, LA MSA                              115              68                43            37%
 Johnstown, PA MSA                                67              41                25            37%
 Goldsboro, NC MSA                               116              72                43            37%
 Pascagoula, MS MSA                              281             170               104            37%
 Dover, DE MSA                                   694             434               253            36%
 Decatur, IL MSA                                  58              37                21            36%
 Utica-Rome, NY MSA                              235             147                84            36%
 Ames, IA MSA                                     42              24                15            36%
 Elmira, NY MSA                                   73              47                26            36%
 Kankakee-Bradley, IL MSA                        335             211               119            36%
 Florence, SC MSA                                338             214               120            36%
 Shreveport-Bossier City, LA MSA                 507             317               180            36%
 Columbia, MO MSA                                127              79                45            35%
 Valdosta, GA MSA                                144              92                51            35%
 Rockford, IL MSA                              1,110             707               392            35%
 Anniston-Oxford, AL MSA                         125              74                44            35%
 Montgomery, AL MSA                              617             389               216            35%
 Waco, TX MSA                                    126              79                44            35%
 Wichita Falls, TX MSA                            43              27                15            35%
 Mobile, AL MSA                                  872             558               304            35%
 Jackson, TN MSA                                 201             130                70            35%
 Huntsville, AL MSA                              474             302               165            35%
 Janesville, WI MSA                              474             301               165            35%
 Memphis, TN-MS-AR MSA                         5,009           3,217             1,739            35%
 Clarksville, TN-KY MSA                          179             110                62            35%
 Altoona, PA MSA                                 104              66                36            35%
 Tyler, TX MSA                                   166             101                57            34%
 Atlantic City-Hammonton, NJ MSA               1,883           1,217               645            34%
 Salisbury, MD MSA                               403             260               138            34%
 York-Hanover, PA MSA                          1,275             828               435            34%
 Greenville, NC MSA                              276             179                94            34%
                                                                              Continued on next page
42   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                          redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                             Permanent             Active    Redefaulted     Redefault
                          MSA Name                                          Modifications   Modifications   Modifications        Rate
                          Baton Rouge, LA MSA                                      1,679           1,092             569          34%
                          Lawton, OK MSA                                              68              45              23          34%
                          Hinesville-Fort Stewart, GA MSA                             74              49              25          34%
                          Trenton-Ewing, NJ MSA                                    1,185             772             400          34%
                          Columbus, IN MSA                                            86              52              29          34%
                          Lebanon, PA MSA                                            181             113              61          34%
                          Oshkosh-Neenah, WI MSA                                     214             135              72          34%
                          Little Rock-North Little Rock-Conway, AR MSA               785             505             264          34%
                          Wichita, KS MSA                                            567             359             190          34%
                          Longview, TX MSA                                            93              58              31          33%
                          Lafayette, LA MSA                                          337             215             112          33%
                          Panama City-Lynn Haven, FL MSA                             477             311             158          33%
                          Champaign-Urbana, IL MSA                                   151              95              50          33%
                          St. Joseph, MO-KS MSA                                      124              82              41          33%
                          La Crosse, WI-MN MSA                                       118              73              39          33%
                          Flagstaff, AZ MSA                                          282             184              93          33%
                          Springfield, MA MSA                                      2,081           1,372             686          33%
                          Pocatello, ID MSA                                          137              91              45          33%
                          Birmingham-Hoover, AL MSA                                2,665           1,740             875          33%
                          Peoria, IL MSA                                             329             212             108          33%
                          Ocean City, NJ MSA                                         425             282             139          33%
                          Anderson, IN MSA                                           236             158              77          33%
                          Allentown-Bethlehem-Easton, PA-NJ MSA                    3,051           2,026             991          32%
                          Johnson City, TN MSA                                       194             129              63          32%
                          St. Louis, MO-IL MSA                                     8,445           5,579           2,736          32%
                          Hagerstown-Martinsburg, MD-WV MSA                        1,368             910             443          32%
                          Jefferson City, MO MSA                                     136              87              44          32%
                          Philadelphia-Camden-Wilmington, PA-NJ-DE-MD MSA         20,227          13,467           6,524          32%
                          Jacksonville, FL MSA                                     7,784           5,199           2,509          32%
                          Winston-Salem, NC MSA                                    1,073             710             345          32%
                          Monroe, LA MSA                                             165             110              53          32%
                          Macon, GA MSA                                              605             405             194          32%
                          Joplin, MO MSA                                             169             103              54          32%
                          Louisville/Jefferson County, KY-IN MSA                   2,410           1,597             770          32%
                          Abilene, TX MSA                                             47              29              15          32%
                          Fairbanks, AK MSA                                           47              27              15          32%
                          Columbia, SC MSA                                         1,883           1,255             600          32%
                          Topeka, KS MSA                                             204             133              65          32%
                          Wheeling, WV-OH MSA                                         85              57              27          32%
                          Davenport-Moline-Rock Island, IA-IL MSA                    419             275             133          32%
                          Tulsa, OK MSA                                            1,037             680             329          32%
                                                                                                                 Continued on next page
                                                                              HAMP Modification Statistics I Appendix F I JULY 24, 2013   43



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                    Permanent             Active    Redefaulted        Redefault
MSA Name                                           Modifications   Modifications   Modifications           Rate
Nashville-Davidson-Murfreesboro-Franklin, TN MSA          3,780           2,508             1,198            32%
New Orleans-Metairie-Kenner, LA MSA                       3,167           2,117             1,003            32%
Fayetteville, NC MSA                                        427             284               135            32%
Lakeland-Winter Haven, FL MSA                             3,511           2,371             1,110            32%
Savannah, GA MSA                                            949             637               300            32%
Springfield, MO MSA                                         614             405               193            31%
Poughkeepsie-Newburgh-Middletown, NY MSA                  3,350           2,264             1,052            31%
New Haven-Milford, CT MSA                                 4,018           2,729             1,259            31%
Dubuque, IA MSA                                              83              51                26            31%
Omaha-Council Bluffs, NE-IA MSA                           1,316             861               412            31%
Mankato-North Mankato, MN MSA                               131              87                41            31%
Norwich-New London, CT MSA                                1,064             725               333            31%
Toledo, OH MSA                                            1,804           1,217               564            31%
Sebastian-Vero Beach, FL MSA                                934             634               292            31%
Deltona-Daytona Beach-Ormond Beach, FL MSA                3,911           2,658             1,222            31%
Sheboygan, WI MSA                                           173             116                54            31%
Las Vegas-Paradise, NV MSA                               22,760          15,451             7,102            31%
Milwaukee-Waukesha-West Allis, WI MSA                     4,401           2,975             1,372            31%
Cleveland, TN MSA                                           183             119                57            31%
Eau Claire, WI MSA                                          196             127                61            31%
Tallahassee, FL MSA                                         964             650               300            31%
Des Moines-West Des Moines, IA MSA                        1,154             768               359            31%
Wenatchee, WA MSA                                           222             150                69            31%
Rochester, MN MSA                                           329             224               102            31%
Crestview-Fort Walton Beach-Destin, FL MSA                  511             345               158            31%
Anderson, SC MSA                                            414             271               128            31%
Rapid City, SD MSA                                          110              73                34            31%
Lancaster, PA MSA                                           807             536               249            31%
Greensboro-High Point, NC MSA                             1,877           1,275               579            31%
Pensacola-Ferry Pass-Brent, FL MSA                        1,256             856               386            31%
Fond du Lac, WI MSA                                         124              83                38            31%
Spartanburg, SC MSA                                         627             422               192            31%
Oklahoma City, OK MSA                                     1,297             866               397            31%
Worcester, MA MSA                                         3,926           2,687             1,201            31%
Jacksonville, NC MSA                                        121              82                37            31%
Kansas City, MO-KS MSA                                    4,439           2,998             1,357            31%
Chattanooga, TN-GA MSA                                    1,034             692               316            31%
Portland-South Portland-Biddeford, ME MSA                 1,991           1,349               608            31%
Knoxville, TN MSA                                         1,235             827               377            31%
Florence-Muscle Shoals, AL MSA                              118              76                36            31%
Albany-Schenectady-Troy, NY MSA                           1,276             872               389            30%
                                                                                         Continued on next page
44   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                          redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                            Permanent             Active    Redefaulted     Redefault
                          MSA Name                                         Modifications   Modifications   Modifications        Rate
                          Virginia Beach-Norfolk-Newport News, VA-NC MSA          5,275           3,590           1,608          30%
                          Idaho Falls, ID MSA                                       240             161              73          30%
                          Lima, OH MSA                                              148             101              45          30%
                          Rochester, NY MSA                                       1,102             745             335          30%
                          Battle Creek, MI MSA                                      339             233             103          30%
                          Harrisburg-Carlisle, PA MSA                               762             520             231          30%
                          Beaumont-Port Arthur, TX MSA                              205             140              62          30%
                          Tuscaloosa, AL MSA                                        248             166              75          30%
                          Amarillo, TX MSA                                           96              60              29          30%
                          Bowling Green, KY MSA                                     116              78              35          30%
                          Lubbock, TX MSA                                           116              79              35          30%
                          Indianapolis-Carmel, IN MSA                             3,936           2,685           1,187          30%
                          Cincinnati-Middletown, OH-KY-IN MSA                     4,523           3,103           1,364          30%
                          Huntington-Ashland, WV-KY-OH MSA                          186             125              56          30%
                          St. Cloud, MN MSA                                         422             281             127          30%
                          Roanoke, VA MSA                                           535             362             161          30%
                          Dayton, OH MSA                                          1,609           1,114             484          30%
                          Springfield, IL MSA                                       143              96              43          30%
                          Hattiesburg, MS MSA                                       180             122              54          30%
                          Lewiston-Auburn, ME MSA                                   250             172              75          30%
                          Columbus, GA-AL MSA                                       537             369             161          30%
                          Raleigh-Cary, NC MSA                                    2,678           1,814             802          30%
                          Auburn-Opelika, AL MSA                                    177             120              53          30%
                          Wausau, WI MSA                                            157             109              47          30%
                          Terre Haute, IN MSA                                       127              88              38          30%
                          Dalton, GA MSA                                            408             284             122          30%
                          Baltimore-Towson, MD MSA                               12,514           8,629           3,741          30%
                          Ocala, FL MSA                                           1,939           1,341             579          30%
                          Hot Springs, AR MSA                                       114              76              34          30%
                          Green Bay, WI MSA                                         473             325             141          30%
                          Racine, WI MSA                                            574             398             171          30%
                          Lincoln, NE MSA                                           289             193              86          30%
                          Phoenix-Mesa-Glendale, AZ MSA                          39,049          26,866          11,612          30%
                          Tampa-St. Petersburg-Clearwater, FL MSA                17,561          12,147           5,203          30%
                          Scranton-Wilkes-Barre, PA MSA                             932             643             276          30%
                          Erie, PA MSA                                              230             158              68          30%
                          Corpus Christi, TX MSA                                    274             186              81          30%
                          Dothan, AL MSA                                            132              92              39          30%
                          Myrtle Beach-North Myrtle Beach-Conway, SC MSA          1,197             834             353          29%
                          Sandusky, OH MSA                                          173             120              51          29%
                          Danville, VA MSA                                          112              78              33          29%
                                                                                                                Continued on next page
                                                                             HAMP Modification Statistics I Appendix F I JULY 24, 2013   45



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                   Permanent             Active    Redefaulted        Redefault
MSA Name                                          Modifications   Modifications   Modifications           Rate
Syracuse, NY MSA                                           516             354               152            29%
Lake Charles, LA MSA                                       191             134                56            29%
Palm Bay-Melbourne-Titusville, FL MSA                    3,604           2,506             1,056            29%
Hartford-West Hartford-East Hartford, CT MSA             4,142           2,874             1,213            29%
Bismarck, ND MSA                                            41              26                12            29%
Odessa, TX MSA                                              41              28                12            29%
San Angelo, TX MSA                                          41              26                12            29%
Dallas-Fort Worth-Arlington, TX MSA                     11,112           7,671             3,250            29%
Charleston-North Charleston-Summerville, SC MSA          2,394           1,653               699            29%
Charlotte-Gastonia-Rock Hill, NC-SC MSA                  6,878           4,776             2,007            29%
Warner Robins, GA MSA                                      192             132                56            29%
Evansville, IN-KY MSA                                      343             233               100            29%
Lansing-East Lansing, MI MSA                             1,202             841               350            29%
Owensboro, KY MSA                                           79              51                23            29%
Madison, WI MSA                                            907             619               264            29%
Glens Falls, NY MSA                                        251             170                73            29%
Reading, PA MSA                                            970             674               282            29%
Fayetteville-Springdale-Rogers, AR-MO MSA                1,035             707               300            29%
Tucson, AZ MSA                                           5,149           3,602             1,492            29%
Wilmington, NC MSA                                       1,094             765               317            29%
Greenville-Mauldin-Easley, SC MSA                        1,418             982               410            29%
Columbus, OH MSA                                         4,049           2,823             1,170            29%
Sioux Falls, SD MSA                                        201             130                58            29%
Great Falls, MT MSA                                         59              41                17            29%
Orlando-Kissimmee-Sanford, FL MSA                       21,781          15,306             6,259            29%
Reno-Sparks, NV MSA                                      3,411           2,386               980            29%
Steubenville-Weirton, OH-WV MSA                            101              72                29            29%
San Antonio-New Braunfels, TX MSA                        2,439           1,695               700            29%
Atlanta-Sandy Springs-Marietta, GA MSA                  35,363          24,914           10,132             29%
Lexington-Fayette, KY MSA                                  587             408               168            29%
Kalamazoo-Portage, MI MSA                                  682             481               195            29%
Carson City, NV MSA                                        336             234                96            29%
College Station-Bryan, TX MSA                               98              63                28            29%
Muncie, IN MSA                                             126              88                36            29%
Olympia, WA MSA                                            805             564               230            29%
Richmond, VA MSA                                         4,533           3,190             1,293            29%
Buffalo-Niagara Falls, NY MSA                            1,045             730               298            29%
Houston-Sugar Land-Baytown, TX MSA                      11,846           8,325             3,376            28%
Ogden-Clearfield, UT MSA                                 1,474           1,008               420            28%
Port St. Lucie, FL MSA                                   4,215           2,966             1,200            28%
Providence-New Bedford-Fall River, RI-MA MSA             8,536           6,027             2,428            28%
                                                                                        Continued on next page
46   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                          redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                         Permanent             Active    Redefaulted     Redefault
                          MSA Name                                      Modifications   Modifications   Modifications        Rate
                          Mansfield, OH MSA                                      229             156              65          28%
                          Asheville, NC MSA                                    1,064             740             302          28%
                          Brunswick, GA MSA                                      194             137              55          28%
                          Sioux City, IA-NE-SD MSA                               120              82              34          28%
                          Duluth, MN-WI MSA                                      534             375             151          28%
                          Pittsfield, MA MSA                                     181             127              51          28%
                          Cape Coral-Fort Myers, FL MSA                        4,387           3,095           1,236          28%
                          Durham, NC MSA                                       1,002             708             282          28%
                          Appleton, WI MSA                                       288             199              81          28%
                          Bremerton-Silverdale, WA MSA                           733             521             206          28%
                          Chicago-Joliet-Naperville, IL-IN-WI MSA             60,874          43,345          17,100          28%
                          Manchester-Nashua, NH MSA                            1,725           1,216             484          28%
                          Gadsden, AL MSA                                        125              88              35          28%
                          Gainesville, FL MSA                                    518             372             145          28%
                          Michigan City-La Porte, IN MSA                         261             184              73          28%
                          Winchester, VA-WV MSA                                  701             495             196          28%
                          Hickory-Lenoir-Morganton, NC MSA                       802             556             224          28%
                          Mount Vernon-Anacortes, WA MSA                         401             283             112          28%
                          Laredo, TX MSA                                         381             271             106          28%
                          North Port-Bradenton-Sarasota, FL MSA                4,305           3,077           1,196          28%
                          Cheyenne, WY MSA                                       108              75              30          28%
                          Farmington, NM MSA                                      90              62              25          28%
                          Minneapolis-St. Paul-Bloomington, MN-WI MSA         15,758          11,179           4,377          28%
                          Billings, MT MSA                                       119              79              33          28%
                          Rome, GA MSA                                           148             106              41          28%
                          Cleveland-Elyria-Mentor, OH MSA                      6,492           4,627           1,797          28%
                          Morristown, TN MSA                                     228             162              63          28%
                          Punta Gorda, FL MSA                                  1,004             711             277          28%
                          Lake Havasu City-Kingman, AZ MSA                     1,121             794             309          28%
                          Muskegon-Norton Shores, MI MSA                         483             339             133          28%
                          Albuquerque, NM MSA                                  2,622           1,865             720          27%
                          Longview, WA MSA                                       343             242              94          27%
                          Flint, MI MSA                                        1,483           1,056             406          27%
                          Pittsburgh, PA MSA                                   2,740           1,938             750          27%
                          South Bend-Mishawaka, IN-MI MSA                        733             524             200          27%
                          Killeen-Temple-Fort Hood, TX MSA                       165             120              45          27%
                          Yuma, AZ MSA                                           987             709             269          27%
                          Palm Coast, FL MSA                                     968             693             263          27%
                          McAllen-Edinburg-Mission, TX MSA                       854             615             232          27%
                          Charleston, WV MSA                                     162             115              44          27%
                          Brownsville-Harlingen, TX MSA                          377             271             102          27%
                                                                                                             Continued on next page
                                                                       HAMP Modification Statistics I Appendix F I JULY 24, 2013   47



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                             Permanent             Active    Redefaulted        Redefault
MSA Name                                    Modifications   Modifications   Modifications           Rate
Houma-Bayou Cane-Thibodaux, LA MSA                   196             138                53            27%
Athens-Clarke County, GA MSA                         455             328               123            27%
Parkersburg-Marietta-Vienna, WV-OH MSA               111              77                30            27%
Decatur, AL MSA                                      137              98                37            27%
Binghamton, NY MSA                                   167             120                45            27%
Jonesboro, AR MSA                                     56              38                15            27%
Grand Junction, CO MSA                               464             333               124            27%
Fort Wayne, IN MSA                                   650             464               173            27%
Lawrence, KS MSA                                     124              87                33            27%
Prescott, AZ MSA                                   1,185             852               315            27%
Charlottesville, VA MSA                              482             346               128            27%
Niles-Benton Harbor, MI MSA                          373             265                99            27%
Blacksburg-Christiansburg-Radford, VA MSA            117              80                31            26%
Spokane, WA MSA                                    1,169             838               309            26%
Youngstown-Warren-Boardman, OH-PA MSA                935             673               247            26%
Kingston, NY MSA                                     692             505               182            26%
Canton-Massillon, OH MSA                             964             699               253            26%
Augusta-Richmond County, GA-SC MSA                   710             511               186            26%
Bend, OR MSA                                       1,092             789               286            26%
Pine Bluff, AR MSA                                    42              31                11            26%
Springfield, OH MSA                                  252             186                66            26%
Naples-Marco Island, FL MSA                        2,097           1,517               549            26%
Salem, OR MSA                                      1,290             942               337            26%
Kokomo, IN MSA                                       184             131                48            26%
Elkhart-Goshen, IN MSA                               499             361               130            26%
Yuba City, CA MSA                                  1,236             900               322            26%
Harrisonburg, VA MSA                                 192             138                50            26%
Barnstable Town, MA MSA                            1,484           1,077               386            26%
Austin-Round Rock-San Marcos, TX MSA               2,234           1,604               581            26%
Waterloo-Cedar Falls, IA MSA                         154             111                40            26%
Cumberland, MD-WV MSA                                108              79                28            26%
Medford, OR MSA                                    1,029             752               266            26%
Grand Rapids-Wyoming, MI MSA                       2,168           1,578               560            26%
Bloomington-Normal, IL MSA                           151             106                39            26%
Detroit-Warren-Livonia, MI MSA                    21,372          15,525             5,512            26%
Seattle-Tacoma-Bellevue, WA MSA                   16,203          11,861             4,177            26%
Ithaca, NY MSA                                        35              26                  9           26%
Burlington, NC MSA                                   312             222                80            26%
Fargo, ND-MN MSA                                     137              95                35            26%
Pueblo, CO MSA                                       432             314               110            25%
Logan, UT-ID MSA                                     169             120                43            25%
                                                                                  Continued on next page
48   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                          redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                                Permanent             Active    Redefaulted     Redefault
                          MSA Name                                             Modifications   Modifications   Modifications        Rate
                          Boise City-Nampa, ID MSA                                    2,633           1,932             667          25%
                          Lynchburg, VA MSA                                             320             235              81          25%
                          El Centro, CA MSA                                           1,218             900             307          25%
                          Jackson, MI MSA                                               496             358             125          25%
                          Yakima, WA MSA                                                278             206              70          25%
                          Gainesville, GA MSA                                           959             711             241          25%
                          Boston-Cambridge-Quincy, MA-NH MSA                         20,231          14,882           5,083          25%
                          Holland-Grand Haven, MI MSA                                   605             440             152          25%
                          Bay City, MI MSA                                              220             162              55          25%
                          Texarkana, TX-Texarkana, AR MSA                                56              41              14          25%
                          El Paso, TX MSA                                               964             707             240          25%
                          St. George, UT MSA                                            936             691             232          25%
                          Coeur d’Alene, ID MSA                                         541             397             134          25%
                          Akron, OH MSA                                               1,961           1,447             484          25%
                          Stockton, CA MSA                                            8,196           6,114           2,016          25%
                          Monroe, MI MSA                                                643             472             158          25%
                          Bridgeport-Stamford-Norwalk, CT MSA                         4,877           3,656           1,189          24%
                          Kingsport-Bristol-Bristol, TN-VA MSA                          255             189              62          24%
                          Fresno, CA MSA                                              7,238           5,421           1,754          24%
                          Hanford-Corcoran, CA MSA                                      750             557             181          24%
                          Visalia-Porterville, CA MSA                                 3,189           2,396             766          24%
                          Williamsport, PA MSA                                          100              71              24          24%
                          Riverside-San Bernardino-Ontario, CA MSA                   57,658          43,316          13,830          24%
                          New York-Northern New Jersey-Long Island, NY-NJ-PA
                                                                                     76,922          57,834          18,445          24%
                          MSA
                          Washington-Arlington-Alexandria, DC-VA-MD-WV MSA           38,549          28,853           9,240          24%
                          Eugene-Springfield, OR MSA                                    948             700             227          24%
                          Salt Lake City, UT MSA                                      4,990           3,690           1,194          24%
                          Anchorage, AK MSA                                             445             322             106          24%
                          Sacramento-Arden-Arcade-Roseville, CA MSA                  19,479          14,617           4,625          24%
                          Saginaw-Saginaw Township North, MI MSA                        354             265              84          24%
                          Bakersfield-Delano, CA MSA                                  6,871           5,186           1,624          24%
                          Modesto, CA MSA                                             5,771           4,359           1,362          24%
                          Merced, CA MSA                                              2,109           1,597             497          24%
                          Cape Girardeau-Jackson, MO MSA                                 85              63              20          24%
                          Las Cruces, NM MSA                                            268             198              63          24%
                          Madera, CA MSA                                              1,421           1,070             331          23%
                          Casper, WY MSA                                                108              80              25          23%
                          State College, PA MSA                                         108              80              25          23%
                          Portland-Vancouver-Hillsboro, OR-WA MSA                     9,163           6,923           2,119          23%
                          Sherman-Denison, TX MSA                                       126              95              29          23%
                                                                                                                    Continued on next page
                                                                         HAMP Modification Statistics I Appendix F I JULY 24, 2013   49



Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                               Permanent             Active    Redefaulted        Redefault
MSA Name                                      Modifications   Modifications   Modifications           Rate
Colorado Springs, CO MSA                             1,676           1,252               385            23%
Fort Smith, AR-OK MSA                                  175             128                40            23%
Provo-Orem, UT MSA                                   2,269           1,699               516            23%
Chico, CA MSA                                          928             709               211            23%
Honolulu, HI MSA                                     2,126           1,587               482            23%
Vallejo-Fairfield, CA MSA                            5,332           4,087             1,207            23%
Redding, CA MSA                                        951             728               215            23%
Bellingham, WA MSA                                     501             379               113            23%
Miami-Fort Lauderdale-Pompano Beach, FL MSA         60,308          46,314           13,521             22%
Iowa City, IA MSA                                       85              62                19            22%
Greeley, CO MSA                                        924             700               205            22%
Santa Fe, NM MSA                                       475             362               105            22%
Missoula, MT MSA                                       196             149                43            22%
Lewiston, ID-WA MSA                                     73              53                16            22%
Denver-Aurora, CO MSA                                9,974           7,572             2,186            22%
Ann Arbor, MI MSA                                      990             755               216            22%
Manhattan, KS MSA                                       60              42                13            22%
Elizabethtown, KY MSA                                   74              55                16            22%
Victoria, TX MSA                                        28              21                  6           21%
Lafayette, IN MSA                                      183             139                39            21%
Burlington-South Burlington, VT MSA                    337             257                70            21%
Bloomington, IN MSA                                    190             143                39            21%
Fort Collins-Loveland, CO MSA                          681             521               139            20%
Grand Forks, ND-MN MSA                                  49              35                10            20%
Midland, TX MSA                                         54              39                11            20%
Corvallis, OR MSA                                       82              65                15            18%
Santa Barbara-Santa Maria-Goleta, CA MSA             2,178           1,764               398            18%
Guayama, PR MSA                                         34              28                  6           18%
Mayaguez, PR MSA                                        68              54                12            18%
Napa, CA MSA                                           908             745               158            17%
Kennewick-Pasco-Richland, WA MSA                       257             205                44            17%
San Diego-Carlsbad-San Marcos, CA MSA               20,084          16,471             3,438            17%
Los Angeles-Long Beach-Santa Ana, CA MSA            87,612          71,973           14,997             17%
Fajardo, PR MSA                                         65              53                11            17%
San Francisco-Oakland-Fremont, CA MSA               24,319          20,047             4,103            17%
Salinas, CA MSA                                      2,716           2,250               451            17%
Santa Rosa-Petaluma, CA MSA                          3,411           2,831               556            16%
San Juan-Caguas-Guaynabo, PR MSA                     3,180           2,617               511            16%
Boulder, CO MSA                                        530             433                85            16%
San Luis Obispo-Paso Robles, CA MSA                  1,301           1,084               203            16%
Morgantown, WV MSA                                      39              29                  6           15%
                                                                                    Continued on next page
50   Appendix F I HAMP Modification Statistics I JULY 24, 2013




                          Redefaulted HAMP PERMANENT MODIFICATIONS for METROPOLITAN STATISTICAL AREAs, by
                          redefault rate, cumulative AS OF 4/30/2013 (Continued)
                                                                                                    Permanent                    Active          Redefaulted    Redefault
                          MSA Name                                                                 Modifications          Modifications         Modifications       Rate
                          Oxnard-Thousand Oaks-Ventura, CA MSA                                                5,994                  5,027               917         15%
                          Aguadilla-Isabela-San Sebastian, PR MSA                                               139                     113               20         14%
                          Ponce, PR MSA                                                                         122                     104               17         14%
                          San Jose-Sunnyvale-Santa Clara, CA MSA                                              7,881                  6,731             1,078         14%
                          San German-Cabo Rojo, PR MSA                                                            63                      55               8         13%
                          Santa Cruz-Watsonville, CA MSA                                                      1,151                  1,013               133         12%
                          Yauco, PR MSA                                                                           30                      29               1          3%
                          Property is determined to be in a location that is not
                                                                                                            69,559                  48,304            19,957         29%
                          in any MSA
                          No Match Found                                                                            9                       6              3         33%
                          To Be Determined                                                                        53                        0             53        100%
                          Total                                                                       1,185,586                  865,100            306,538         26%
                          Notes: Includes GSE and non-GSE modifications. Of permanent modifications started, 13,948 loans have been paid off.

                          Source: Treasury, response to SIGTARP data call, 6/13/2013.
SIGTARP Hotline
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




Press Inquiries
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




Legislative Affairs
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




Obtaining Copies of Testimony and Reports
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
